<html>
<title> - PRISON RAPE REDUCTION ACT OF 2003</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



                   PRISON RAPE REDUCTION ACT OF 2003

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   ON

                               H.R. 1707

                               __________

                             APRIL 29, 2003

                               __________

                             Serial No. 36

                               __________

         Printed for the use of the Committee on the Judiciary


    Available via the World Wide Web: http://www.house.gov/judiciary


                                 ______

86-706              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
HENRY J. HYDE, Illinois              JOHN CONYERS, Jr., Michigan
HOWARD COBLE, North Carolina         HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   RICK BOUCHER, Virginia
ELTON GALLEGLY, California           JERROLD NADLER, New York
BOB GOODLATTE, Virginia              ROBERT C. SCOTT, Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
WILLIAM L. JENKINS, Tennessee        ZOE LOFGREN, California
CHRIS CANNON, Utah                   SHEILA JACKSON LEE, Texas
SPENCER BACHUS, Alabama              MAXINE WATERS, California
JOHN N. HOSTETTLER, Indiana          MARTIN T. MEEHAN, Massachusetts
MARK GREEN, Wisconsin                WILLIAM D. DELAHUNT, Massachusetts
RIC KELLER, Florida                  ROBERT WEXLER, Florida
MELISSA A. HART, Pennsylvania        TAMMY BALDWIN, Wisconsin
JEFF FLAKE, Arizona                  ANTHONY D. WEINER, New York
MIKE PENCE, Indiana                  ADAM B. SCHIFF, California
J. RANDY FORBES, Virginia            LINDA T. SANCHEZ, California
STEVE KING, Iowa
JOHN R. CARTER, Texas
TOM FEENEY, Florida
MARSHA BLACKBURN, Tennessee

             Philip G. Kiko, Chief of Staff-General Counsel
               Perry H. Apelbaum, Minority Chief Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

                 HOWARD COBLE, North Carolina, Chairman

TOM FEENEY, Florida                  ROBERT C. SCOTT, Virginia
BOB GOODLATTE, Virginia              ADAM B. SCHIFF, California
STEVE CHABOT, Ohio                   SHEILA JACKSON LEE, Texas
MARK GREEN, Wisconsin                MAXINE WATERS, California
RIC KELLER, Florida                  MARTIN T. MEEHAN, Massachusetts
MIKE PENCE, Indiana
J. RANDY FORBES, Virginia

                      Jay Apperson, Chief Counsel

                        Sean McLaughlin, Counsel

                        Elizabeth Sokul, Counsel

                          Katy Crooks, Counsel

                Patricia DeMarco, Full Committee Counsel

                     Bobby Vassar, Minority Counsel


                            C O N T E N T S

                              ----------                              

                             APRIL 29, 2003

                           OPENING STATEMENT

                                                                   Page
The Honorable Howard Coble, a Representative in Congress From the 
  State of North Carolina, and Chairman, Subcommittee on Crime, 
  Terrorism, and Homeland Security...............................     1
The Honorable Robert C. Scott, a Representative in Congress From 
  the State of Virginia, and Ranking Member, Subcommittee on 
  Crime, Terrorism, and Homeland Security........................     2
The Honorable Frank R. Wolf, a Representative in Congress From 
  the State of Virginia..........................................     6

                               WITNESSES

Ms. Tracy A. Henke, Principal Deputy Assistant Attorney General, 
  Office of Justice Programs, United States Department of Justice
  Oral Testimony.................................................    11
  Prepared Statement.............................................    14
Mr. Ashbel T. (A.T.) Wall, II, Director, Department of 
  Corrections, State of Rhode Island
  Oral Testimony.................................................    16
  Prepared Statement.............................................    18
Mr. Charles J. Kehoe, President, American Correctional 
  Association
  Oral Testimony.................................................    21
  Prepared Statement.............................................    24
Mr. Frank A. Hall, Director, The Eagle Group
  Oral Testimony.................................................    27
  Prepared Statement.............................................    30

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Letter from Prison Fellowship Ministries (PFM) with coalition 
  signatures.....................................................     4
Prepared statement of the Honorable Frank R. Wolf, a 
  Representative in Congress From the State of Virginia..........     8
Prepared statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress From the State of Texas.............    37
Letter from Charles W. Colson, Chairman, and Mark Early, 
  President, Prison Fellowship Ministries (PFM)..................    42
Prepared statement of Pat Nolan, President, Justice Fellowship...    44
Letter from Glenn Goord, Commissioner, Department of Correctional 
  Services, State of New York....................................    45
Letter from Robert Stalder, Secretary, Department of Public 
  Safety and Corrections, State of Louisiana.....................    47

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared statement of Michael J. Horowitz, Senior Fellow, Hudson 
  Institute......................................................    51
Letter from Harold W. Clarke, Director, Department of 
  Correctional Services, State of Nebraska, with attachments.....    53
Letter from Cindy Struckman-Johnson, Ph.D., in response to letter 
  from Harold W. Clarke, with attachments........................   115
Letter from Joseph D. Lehman, Secretary, Department of Corrects, 
  State of Washington............................................   141
Letter from Reginald A. Wilkinson, Ed.D., President, Association 
  of State Correctional Administrators and Director, Ohio 
  Department of Rehabilitation and Correction....................   144
Letter from Alida V. Merlo, Ph.D., Professor, Indiana University 
  of Pennsylvania................................................   147
Letter from Martin D. Schwartz, Ph.D., Presidential Research 
  Scholar, Professor of Sociology, Ohio University...............   149
Letter from Leanne Fiftal Alarid, Ph.D., Associate Professor and 
  Progam Coordinator, Criminal Justice and Criminology, 
  University of Missouri-Kansas City.............................   151

 
                   PRISON RAPE REDUCTION ACT OF 2003

                              ----------                              


                        TUESDAY, APRIL 29, 2003

                  House of Representatives,
                  Subcommittee on Crime, Terrorism,
                              and Homeland Security
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 4:02 p.m., in 
Room 2237, Rayburn House Office Building, Hon. Howard Coble 
[Chairman of the Subcommittee] presiding.
    Mr. Coble. Good afternoon, ladies and gentlemen. The 
Judiciary Subcommittee on Crime, Terrorism, and Homeland 
Security will come to order.
    This hearing is to examine the issue of sexual assault 
within Federal, State, and local correctional institutions and 
actions that are to be taken to address the issue.
    Correctional institutions must deal with many issues that 
are unique to the population they house. H.R. 1707, the 
``Prison Rape Reduction Act of 2003,'' which has been 
introduced by my friends, Mr. Wolf and Mr. Scott, is intended 
to make prevention of sexual assault within correctional 
facilities a priority for Federal, State, and local 
institutions and require the development of national standards 
for detection, prevention, reduction and punishment of these 
incidents.
    There were over two million individuals incarcerated in 
this country by the end of 2001. Although most correctional 
facilities have procedures in place to protect inmates against 
violence from other inmates while they are incarcerated, often 
these procedures are inadequate. We know violence occurs, but 
there is very little data regarding the number of violent 
incidences that occur in correctional facilities, and even less 
data on the incidence of sexual assaults.
    Estimates from different experts put the incidence of 
sexual assaults of inmates as high as 13 percent. However, many 
argue that these studies are not accurate and, in fact, the 
incidence is much lower. Regardless of percentages, it is 
difficult to--it is generally agreed that these incidents have 
real consequences for the physical, emotional and psychological 
well-being of the prisoners who may one day be released back 
into society.
    This legislation would require Federal, State and local 
governments to work with the Federal Bureau of Justice 
Statistics to study the number and effects of incidents of 
sexual assault in correctional facilities and hopefully provide 
accurate data for the first time on the actual number of 
incidents. It would also mandate that the State and local 
governments adopt and maintain compliance with the national 
standards developed by the Attorney General to be eligible for 
increases in grant funding.
    For institutions that comply with the Federal Government 
standards and requests for information, this legislation would 
increase of amount of all grant funding a State or local 
government receives by 10 percent at the expense of those 
States who do not comply with such requests or adopt such 
standards. Additionally, because this legislation requires that 
the grant funds designated must aggregate a minimum of one 
billion, affecting approximately one-third of all grants at the 
Office of Justice Programs, many different grants for many 
entities may be affected.
    I am grateful to Mr. Wolf, author of the legislation, and 
the other witnesses appearing here today, because I think this 
is a problem that must be addressed. I want to assure Mr. Wolf 
and Mr. Scott that our Subcommittee staff is prepared to work 
in earnest with you and your staffs to address the concerns our 
witnesses have raised in their testimony to craft a workable 
and meaningful solution to this problem, which the gentleman's 
bill has aptly highlighted.
    I am now pleased to recognize the distinguished gentleman 
from Virginia, the Ranking Member, Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman, for holding this 
hearing on the Prison Rape Reduction Act.
    Of over two million people incarcerated today, it is 
estimated that one in ten, or roughly 200,000, have been raped. 
A 1996 study of Nebraska prisoners reflected 22 percent had 
been raped or pressured and intimidated into sexual activity 
against their will. A 2001 report by the Human Rights Watch 
documented ``shockingly high rates of sexual abuse in U.S. 
prisons.'' The research indicates that those subjected to 
sexual abuse in prisons are not abused just once but, on the 
average, nine more times during their incarceration. Youths in 
adult prisons are five times more likely to be raped than 
adults.
    The effects of prison rape are devastating. The rape is 
recognized as a contributing factor to prison homicide, 
violence against staff, and institutional riots. Not only does 
it cause severe physical and psychological trauma to victims, 
it increases the transmission of HIV/AIDS, other sexually 
transmitted diseases, tuberculosis and hepatitis B and C, all 
of which exist at very high rates within U.S. prisons and 
jails.
    Society pays dearly for ignoring prison rape. It makes 
victimized inmates more likely to commit crimes when they are 
released, thus negating Federal programs designed to reduce the 
incidence of crime. Inmates, often nonviolent, first-time 
offenders, come out of prison rape experiences severely 
traumatized and leave prison not only more likely to commit 
crimes, but far more likely to commit violent crimes than when 
they entered.
    The high incidence of rape within prison also leads to 
increased transmission of HIV, hepatitis and other diseases 
outside of prison, which in turn imposes threats and costs to 
all of society.
    The Supreme Court held, in Farmer v. Brennan, that 
deliberate indifference to the risk of prison rape violates the 
8th and 14th amendment to the United States Constitution. While 
conditions may be restrictive and even harsh, prison and jail 
officials must take reasonable measures to guarantee the safety 
of inmates.
    Mr. Chairman, this bill requires prison accreditation 
organizations to examine prison rape prevention practices as a 
critical component of their accreditation reviews. The 
legislation has been carefully drawn to ensure comprehensive 
study and reporting of prison rape and reverse the perverse 
prison administration incentives that often make it exceedingly 
difficult for prison officials to engage in priority efforts to 
abate prison rape.
    Mr. Chairman, I ask at this point unanimous consent to 
enter into the record a letter on the letterhead of Prison 
Fellowship Ministries, which includes the signatures of 35 
organizations, diverse organizations such as the Religion 
Action Center on Reform Judaism, the Christian Coalition, the 
NAACP, the National Council of LaRaza, and many others. I ask 
unanimous consent that this be entered into the record.
    Mr. Coble. Without objection.
    [The material referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Scott. In the end, and perhaps more importantly, the 
effort to combat prison rape is a moral imperative. Prison rape 
is nothing short of torture, the infliction of severe emotional 
and physical pain as punishment and coercion. Long after bodies 
have healed, the emotional trauma, shame and stigma of brutal 
and repeated prison rapes lasts and embitters the individual. 
Thus, prison rape not only derails justice; it destroys human 
dignity.
    We can do better than this as a society, and this bill 
ensures that we do. This is long overdue and I appreciate your 
willingness, Mr. Chairman, to move this matter further at this 
time.
    I would also like to thank my colleague, Frank Wolf from 
Virginia, Chairman of the Commerce, Justice, State 
Appropriations Subcommittee, and chief sponsor of the bill, for 
his leadership and diligence in moving this matter forward.
    I would also like to thank Michael Horowitz and Vinnie 
Sharaldi, leaders of an amazing coalition supporting this bill, 
for their vision, leadership and dedication.
    I thank you again, Mr. Chairman, for working with this 
coalition to move this bill forward.
    Mr. Coble. Thank you, Mr. Scott.
    Let me think aloud a minute, Frank, before I recognize you. 
Several weeks ago I met with the former Director of the Federal 
Bureau of Prisons, who has since retired. I told her that this 
issue very much concerns me. She, in fact, responded to me that 
she felt pretty good in the Federal system, that they have a 
pretty good handle on it, she said, that can detect prisoners 
who may well be vulnerable to these sort of inhumane attacks. I 
felt pretty good after having talked with her. I still know 
it's a problem.
    Another feature that bothers me--and I haven't even talked 
to Mr. Scott or Mr. Sensenbrenner about it--is the overcrowding 
conditions in prisons, and the two may well go hand in hand. 
There may be a corollary. But the overcrowding conditions in 
Federal and State prisons, folks, is a time bomb ticking, 
particularly in State and local prisons.
    I don't know, Frank, whether you plan to touch on that or 
not, but that's just food for thought, two matters that have 
plagued and troubled me for some time, and 50 State 
legislatures and perhaps the Congress may have to address the 
overcrowding which may well at least assuage some of the 
problems involving assaults.
    Mr. Wolf, we're delighted to have you with us, the 
gentleman from the 10th District of Virginia. Mr. Scott and I 
usually adhere to the 5-minute rule inflexibly, but we will cut 
you a little slack, since you are a Virginia fellow and a 
friend of Mr. Scott. It's good to have you with us, Frank.
    Mr. Wolf. I thank you, Mr. Chairman, for having the 
hearings, and I thank my colleague, Bobby Scott, for his 
support and effort and being a champion.
    I think what Mr. Scott said, of this being a moral 
imperative, is exactly what it is. I will be brief, and then 
I'm going to read something and then leave.
    A study in Nebraska found that 22 percent of prisoners in 
that State were forced to have sex against their will while in 
prison--forced. Think of your son, or think of your cousin, or 
think of your brother, or think of your next door neighbor, 
thing of somebody like that. Experts say that approximately 13 
percent--and it's true, probably not as much in Federal prisons 
as in State prisons, and quite frankly, the Congress ought to 
look at this whole issue of sentencing guidelines, because we 
are forcing people into prison many times who ought not really 
be in prison. These numbers indicate the prison system has a 
problem.
    This bill would address the problem in five ways: First, 
this legislation would allow officials to gather for the Bureau 
of Justice Statistics information about the extent of the 
problem of prison rape. There is probably not a lot of 
disagreement as to percentages. If it's 12, that's still high. 
If it's 22, that's absolutely high. If it's 1 percent, it's too 
high. Prison officials and policymakers must know, though, how 
pervasive prison rape is in our jails.
    Secondly, the bill would make prison officials accountable 
for rape through a public review process. This is so private, 
there's nothing public, and therefore they can almost ignore it 
like it's not a problem. Prison officials must understand that 
what happens in prison to inmates matters. Containing prisoners 
behind four walls is not sufficient. They must be protected 
from violent rapes.
    Third, a crediting agency would be required to examine the 
issue of prison rape when reviewing prisons. This will make 
prison officials further accountable for what happens in their 
prisons.
    Fourth, a commission will be established to study the 
problems of prison rape and recommend national standards to 
address the problem.
    Finally, there would be modest grant programs to provide 
funds for innovative ways to launch prison rape prevention and 
prosecution programs.
    It is important to mention that this bill deals with prison 
rape in ways that respect the States' rights. There are many 
awful stories, and I will close my testimony with paraphrasing. 
I would urge all of you to read this--and I will get copies for 
the Subcommittee. You will not be able to go through this 
because it will literally make you sick. But I will paraphrase 
one of the letters given, ``No Escape: Male Rape in U.S. 
Prisons'', the Human Rights Watch.
    This individual says, ``I've been sentenced for a DUI 
offense, my third one. When I came to prison, I had no idea 
what to expect. Certainly none of this. I'm a tall male, who 
unfortunately has a small amount of feminine characteristics. 
And very shy. These characteristics have gotten me raped so 
many times I have had no more feelings physically. I have been 
raped at one time by seven men. I've had knives at my head and 
throat. I have fought and been beat so hard that I didn't even 
think I would see straight again.''
    ``One time when I refused to enter a cell, I was brutally 
attacked by staff and taken to segregation, though I had only 
wanted to prevent the same and worse by not being locked up 
with my cell mate.''
    ``There is no supervision after lockdown. I was given a 
conduct report. I explained to the hearing officer what the 
issue was. He told me off the record, he suggested that I find 
a man I would or could willingly have sex with to prevent these 
things from happening. I requested protective custody, only to 
be denied. It is not available here.''
    He also said there was no where to turn, no where to turn, 
no where to run, and it was best for me to just accept things.
    He ends by saying, ``I probably have AIDS now. I have great 
difficulty raising food to my mouth from shaking after 
nightmares . . .'' and he goes on. A.H. in Indiana.
    The other one is, when we had a hearing over on the Senate 
side--and I'll end with this statement. A mother of a young 
child, 16 years old in Texas, who was repeatedly raped in 
prison, when her son reported the rapes, the prison officials 
he was told, ``rape happens every day. Learn to deal with it. 
It's no big deal.'' This 16-year-old, after repeatedly being 
abused and left to suffer by prison officials, hung himself. 
Why was he in prison? For setting a dumpster on fire.
    This is a moral imperative. Mr. Scott is exactly right. 
This legislation cannot be delayed. The Justice Department is 
now on board, but they drug their heels on this. Each and every 
day, someone will be raped in a prison somewhere. In fact, each 
and every day many will be raped. We will get, the Members of 
this Committee, these stories, and after you read about five or 
six of them, you'll be sickened about what takes place. DUI, 
and now look what takes place.
    Mr. Chairman, I thank you for these hearings. I appreciate 
the willingness of you to move them. I want to reiterate the 
list of people that Mr. Scott said, from the Salvation Army to 
the NAACP, to Chuck Colson, who has forgotten more about this 
issue than anyone probably knows, the Southern Baptist 
Convention, the Religious Action Center for Reform and Judaism, 
and many others who are for this. So, with your good work and 
moving this quickly, I think we can really make a difference in 
wiping out this--I won't even call it a problem--this terrible 
thing that takes place in prisons.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Wolf follows:]

  Prepared Statement of the Honorable Frank Wolf, a Representative in 
                  Congress From the State of Virginia

    Thank you, Chairman Coble, for providing me with the opportunity to 
speak before the subcommittee on a matter which impacts the national 
prison system and our communities--prison rape.
    I also thank the subcommittee's ranking member, my Virginia 
colleague Bobby Scott, for introducing the Prison Rape Reduction Act of 
2003 with me. Representative Scott has been a champion of this 
legislation. I value his partnership on this bill.
    The Prison Rape Reduction Act of 2003 addresses the growing and 
tragic problem of prison rape. In a 1996 study, an estimated 22 percent 
of prisoners in Nebraska were pressured or forced to have sex against 
their will while in prison. Experts have estimated that approximately 
13 percent of inmates in the United States have been victims of a 
sexual assault. Part of the problem with addressing the issue of prison 
rape is that there is insufficient data and research into this problem 
which experts claim is growing. This legislation would establish a 
program to collect prison rape statistics and data in the Department of 
Justice, providing prison officials and policymakers with a clearer 
idea of how pervasive the horrific problem of prison rape has become.
    Victims of prison rape often suffer severe psychological trauma, 
and are sometimes infected with HIV/AIDS, tuberculosis, and other 
diseases. Treatment for these infectious diseases costs federal, state, 
and local jurisdictions additional dollars in administering their 
prison systems. Prison rape not only costs its victims their health and 
dignity, society also pays a price. When we turn a blind eye to prison 
rape, we say that we do not care that prisoners are treated inhumanely. 
That is a position which portrays national and local leaders as callous 
and uncaring.
    This legislation would establish a National Prison Rape Reduction 
Commission which would conduct hearings on prison rape and would issue 
a final report. This commission is vital to provide national standards 
to reduce prison rape. Such a commission would send the message that we 
as a society will not accept prison rape.
    Mr. Chairman, prison rape is not an abstract or theoretical 
problem. It has a human face.
    There are thousands of tragic stories from victims about prison 
rape. I have attached to my remarks several stories of the toll prison 
rape too often takes on its victims.
    The Congress can act to make sure that these vile and violent acts 
are reduced. The legislation before you today takes concrete steps 
toward doing just that. I believe in being tough on crime. But this has 
nothing to do with being tough on crime. It has everything to do with 
human dignity and ending deliberate indifference toward prison rape, 
maintaining order in prisons, and reducing social and economic costs to 
a society left to deal with physically and psychologically damaged 
former inmates.
    Allow me to end my statement with the story of a mother who 
testified on Capitol Hill last year. Her 16-year-old son was repeatedly 
raped in a Texas prison. When the son reported the rapes to prison 
officials, he was told ``(rape) happens everyday, learn to deal with 
it. It is no big deal.'' This 16-year-old, after being repeatedly 
abused and left to suffer by prison officials, hung himself.
    Why was he in prison?
    For setting a dumpster on fire.
    Mr. Chairman and members of the subcommittee, I respectfully urge 
you to move this bill and make sure that no mother ever has to live 
with such a haunting story for the rest of her life.
    I thank you for allowing me to speak before you today.
                                 ______
                                 
         Excerpts from Inmates Testimony to Human Rights Watch
Stories from No Escape: Male Rape in U.S. Prisons, Human Rights Watch, 
                                 2001.

New inmates are often treated like property by older and more violent 
inmates. An inmate in New York writes . . .

    When a man finally gets his victim, he protects him from everyone 
else, buys him anything, the victim washes his clothes, his cell etc. 
In return the entire prison knows that this guy has a ``BITCH'' or 
``girl.'' Now I've seen this happen many times. The response from the 
guards is ``the strong survive,'' ``who cares,'' or they join in the 
teasing and tormenting. But someone who is not ``protected'' has other 
problems. I've seen inmates attacked by two or three men at a time and 
forced to the floor, while three men hold him down the fourth rapes 
him. I've known two men who have hung themselves after this.

An inmate from Arkansas . . .

    I had no choice but to submit to being Inmate B's prison wife. Out 
of fear for my life, I submitted to sex, and performing other duties as 
a woman, such as making his bed. In all reality, I was his slave, as 
the Officials of the Arkansas Department of Corrections under the 
'color of law' did absolutly nothing.

An inmate from Minnesota writes . . .

    Most of the prisoners who rape are spending 5 to life. And are a 
part of a gang. They look for a smaller weaker individual. And make 
that person into a homosexual then sell him to other inmates of gangs. 
Anywhere from a pack of cigarettes to 2 cartons. . . . No one cares 
about you or anyone else. If they show kindness or are trying to be 
helpful, it is only because they want something. And if they are 
offering you protection you can guarantee that their going to seek 
sexual favors. . . . When an inmate comes in for the first time and 
doesn't know anyone. The clicks and gangs. Watch him like Wolves 
readying there attacks. They see if he spends time alone, who he eats 
with. Its like the Wild Kingdom. Then they start playing with him, 
Checking the new guy out. (They call him fresh meat.)

An inmate who was put in jail for a DUI offense . . .

    I've been sentenced for a D.U.I offense. When I first came to 
prison, I had no idea what to expect. Certainly none of this. I'm a 
tall white male, who unfortunatly has a small amount of feminine 
characteristics. And very shy. These characteristics have got me raped 
so many times I have no more feelings physically. I have been raped by 
up to 5 black men and two white men at a time. I've had knifes at my 
head and throat. I had fought and been beat so hard that I didn't ever 
think I'd see straight again. One time when I refused to enter a cell, 
I was brutally attacked by staff and taken to segregation though I had 
only wanted to prevent the same and worse by not locking up with my 
cell mate. There is no supervision after lockdown. I was given a 
conduct report. I explained to the hearing officer what the issue was. 
He told me that off the record, He suggests I find a man I would/could 
willingly have sex with to prevent those things from happening. I've 
requested protective custody only to be denied. It is not available 
here. He also said there was no where to run to, and it would be best 
for me to accept things . . . I probably have AIDS now. I have great 
difficulty raising food to my mouth from shaking after nightmares or 
thinking to hard on all of this . . . I've laid down without physical 
fight to be sodomized. To prevent so much damage in struggles, ripping 
and tearing. Though in not fighting it caused my heart and spirit to be 
raped as well. Something I don't know if I'll ever forgive myself for.

One Florida inmate, serving less than one year in prison . . .

    I was raped in prison from Feb 1991 through Nov 1991. From that it 
left me H.I.V. positive.

    Mr. Coble. I'll pledge to you and Mr. Scott publicly that I 
will do all I can to help move this along, Frank. We thank you 
for being with us.
    Mr. Wolf. Thank you very much, Mr. Chairman.
    Mr. Coble. We will invite our panelists to come forward. 
I'm going to read some background. I think you all in the 
audience need to know some of the credentials that these 
panelists bring to the table.
    Our first witness today is Miss Tracy Henke, Principal 
Deputy Assistant Attorney General for the Office of Justice 
Programs in the United States Department of Justice. Miss Henke 
was designated to serve by Attorney General Ashcroft in June 
2001. Her position requires her to advise and assist the 
Assistant Attorney General to carry out all policy, 
programmatic, legal and managerial matters.
    Prior to joining the Justice Department, Miss Henke worked 
in the Senate for Senator Christopher Bond of Missouri as a 
senior policy advisor, and for Senator Jack Danforth. Miss 
Henke received her degree in political science from the 
University of Missouri at Columbia.
    Our next witness, Mr. A.T. Wall, is Director of the 
Department of Corrections for the State of Rhode Island. He 
will be representing the Association of State Correctional 
Administrators and the Council of State Governments.
    Mr. Wall was awarded a bachelor of arts degree and juris 
doctorate from Yale University. He has a distinguished career 
in corrections, beginning his career in corrections in 1976 as 
a probation officer. He subsequently served as Assistant 
District Attorney in Manhattan, NY, and as a principal policy 
analyst to the Governor of Rhode Island for issues related to 
criminal, juvenile justice, corrections, child welfare, and 
mental health and retardation. From 1987 to 1991, Mr. Wall 
served as Assistant Director for Policy and Development in the 
Rhode Island Department of Corrections.
    In 1991, he became second in command in the Department as 
Assistant Director of Administration, and in 2000 Mr. Wall was 
appointed Director of the Department of Corrections, which 
supervises over 3,600 pretrial and sentenced inmates in eight 
institutions and 27,000 offenders in probation, parole and 
community confinement. He also currently serves as chair of the 
program and training committee for the Association of State 
Correctional Administrators and is a member of the Board of 
Directors for the Council of State Governments.
    Our third witness is Mr. Charles Kehoe, President of the 
American Correctional Association. Mr. Kehoe received a 
bachelor of arts in psychology and sociology from Lewis 
University, and a masters degree in social work from the 
University of Illinois at Chicago.
    He began his career as a social worker for the State of 
Illinois, first counseling delinquent youth, and then working 
in child protective services. Mr. Kehoe moved to Baltimore to 
become Deputy Director of Juvenile Services for the State of 
Maryland. In 1989, he became Director of the Department of 
Youth and Family for the State of Virginia. Most recently, Mr. 
Kehoe served as a consultant for juvenile and criminal justice 
correctional facilities for a number of organizations, 
including his current position as Vice President for Business 
Development, New Century, which provides technical assistance 
to adult and juvenile facilities.
    Our final witness is Mr. Frank Hall, Director of the Eagle 
Group. Mr. Hall received his bachelor of arts from the 
University of North Carolina and a masters degree in public 
administration from Syracuse University's Maxwell School of 
Public Affairs.
    Mr. Hall currently serves as a consultant on issues of 
public safety and new technologies. He has also served as 
Director of Special Projects for a private corrections company, 
providing services to both adult and juvenile offenders in the 
United States, Puerto Rico, and Great Britain.
    Prior to that, Mr. Hall served as Commissioner of six State 
and local corrections departments, including Director of 
Juvenile Justice in New York, and most recently Commissioner of 
Corrections in Philadelphia.
    It's good to have you all with us. I apologize for the 
lengthy introduction, but I think these panelists bring 
impressive credentials to the table and I felt that you all 
should know that.
    We have written statements from each of you. I ask 
unanimous consent to submit into the record their entirety. As 
I said earlier, folks, Mr. Scott and I are sort of inflexible 
about red lights shining into your faces. We will not 
``keelhaul'' you, however. But when you see the red light 
appear, that's a warning that your time is up.
    Why don't we start with you, Miss Henke.

    STATEMENT OF TRACY A. HENKE, PRINCIPAL DEPUTY ASSISTANT 
 ATTORNEY GENERAL, OFFICE OF JUSTICE PROGRAMS, U.S. DEPARTMENT 
                           OF JUSTICE

    Ms. Henke. I will do my best, and I might speak fast, sir.
    Chairman Coble, Congressman Scott, my name is Tracy Henke, 
and as Principal Deputy Assistant Attorney General for the 
Justice Department's Office of Justice Programs, it is a 
pleasure to be here today to discuss H.R. 1707, the ``Prison 
Rape Reduction Act of 2003.''
    Mr. Chairman, H.R. 1707 focuses attention on the problem of 
sexual assaults, including rape and sodomy, that exists within 
the Nation's prisons and jails. Congressman Wolf and 
Congressman Scott have been diligent in their efforts to 
advance the discussions on prison rape, and have shown clear 
leadership by introducing the Prison Rape Reduction Act. The 
Department of Justice is pleased to participate in this 
hearing.
    As you are aware, Mr. Chairman, the Justice Department 
supports the principles of this legislation. At the Department, 
we want to ensure that Federal prisons address, work to 
prevent, and punish those that commit any type of sexual 
assault in prison, and we want to encourage our colleagues who 
manage State and local prisons to do the same. We are committed 
to reaching a consensus which would comprehensively address and 
support efforts for preventing, prosecuting, and punishing 
sexual assault and rape within the Nation's prisons and jails. 
By working with all interested parties, we are confident that 
an agreement can be reached.
    The Department has worked with the sponsors and supporters 
of this legislation to provide technical assistance and 
information prior to its introduction. The Department remains 
committed to an ongoing dialogue that we believe will result in 
an effective and enforceable approach in the near future.
    Mr. Chairman, as the Principal Deputy for the Office of 
Justice Programs, or OJP, it is important to discuss the impact 
that H.R. 1707 will have on OJP's formula grant programs which 
directly support State and local law enforcement and public 
safety activities. This is the issue which will be the focus of 
my comments.
    As background, it is important to state that the Department 
has been working on the issue of prison rape for over 2 years. 
In the spring of 2001, the Department initiated the Prison Rape 
Working Group, which worked with supporters of the legislation 
and with organizations such as the American Correctional 
Association, or ACA. The Department drafted a framework for the 
new standards and worked with the ACA to have them adopted. The 
new standards are now in effect. The Department believes that, 
collectively, these new standards will assist in the prevention 
of prison rape and the effective handling of rape and sexual 
assaults that occurs in prisons and jails.
    Without doubt, the Department's current efforts to address 
prison rape and sexual assault will be enhanced by the $13 
million provided by the Congress in the Department's fiscal 
year 2003 appropriations act. Utilizing these funds, the 
Department will conduct research and statistical analysis on 
victims and victimization in correctional environments.
    As I mentioned earlier, Mr. Chairman, the Justice 
Department is supportive of the principles of the legislation. 
However, some ambiguity and concern remains. We look forward to 
working with the sponsors and supporters of the legislation to 
craft a workable solution that achieves our common goal of 
preventing, prosecuting, and punishing sexual assault and rape 
in our Nation's correctional facilities.
    Specifically, one of the concerns that exists for OJP is 
the effect the incentive provisions of the legislation would 
have on existing grant programs, as well as the practical 
implementation of the necessary augmentation that would be 
required to underlying formulas.
    As you are aware, under sections 8 and 11, States that 
adopt national standards would receive up to a 10 percent 
increase in their share of funding under any Federal formula 
grant program designated by the Attorney General as having a 
relationship to the failure to abate prison rape. This increase 
in funding would be achieved by reducing the shares of those 
States which do not comply. Programs that could potentially be 
impacted include the Byrne Formula, the Local Law Enforcement 
Block Grant, the Residential Substance Abuse Treatment for 
Prisoners, the Juvenile Accountability Incentive Block Grants, 
and Grants to Combat Violence Against Women.
    As an example, let's look at sections 8 and 11 and the 
impact on the Byrne Formula as it relates to--let's use five 
States. California, Florida, Illinois, New York and Texas are 
in compliance with provisions of section 8, hypothetically. 
These States would each receive a 10 percent increase over 
their allocation. The total increase for these five States for 
fiscal year 2003, if the bill were enacted, currently would 
amount to $15.6 million. This represents a $15.6 million 
reduction in funds available to remaining States and 
territories. Under this hypothetical, Mr. Chairman, your State 
of North Carolina would lose $694,000. Congressman Scott's, 
Congressman Goodlatte's and Congressman Forbes' Commonwealth of 
Virginia would lost $607,000.
    These numbers reflect a 10 percent augmentation in the 
formula, but the legislation provides for substantially greater 
augmentation which could result in larger changes to the 
underlying formulas.
    This hypothetical focuses only on the Byrne Formula Program 
and doesn't take into account potential reductions in other 
formula programs that the Office of Justice Programs 
administers or elsewhere within the Federal Government. The 
$497 million of the Byrne Program represents less than half, 
less than half of the minimum required to be designated by the 
Attorney General.
    The proposed formula augmentations would reduce funding for 
State and local law enforcement, including first responders 
such as local police and sheriffs departments, for State 
prisons and local jails, potentially for substance abuse 
programs, and efforts to protect children from sexual 
exploitation and kidnapping.
    I know my time is up, but real quickly, sir, another 
concern to the Department is that the Department believes that 
the integrity of the statistical collection and analysis by the 
Bureau of Justice Statistics be preserved. The legislation 
currently requires BJS not only to collect but also to analyze 
data and produce reports on that analysis in a very short 
timeframe. We recognize the need for quick access to this 
information, but it must be balanced by providing BJS the 
opportunity to accurately and sufficiently analyze the data 
collected.
    Finally, the law authorizing BJS prohibits BJS from 
gathering data for any use other than statistical or research 
purposes. By requiring BJS to identify facilities ``where the 
incidence of prison rape is significantly avoidable,'' the 
legislation calls for BJS to make judgments about what level of 
prison rape is ``significantly avoidable''. This responsibility 
goes beyond BJS' authorized statistical role.
    Mr. Chairman, I appreciate the time afforded and I look 
forward to any questions that you or Congressman Scott might 
have.
    [The prepared statement of Ms. Henke follows:]

                  Prepared Statement of Tracy A. Henke

    Chairman Coble, Congressman Scott, members of the subcommittee, my 
name is Tracy Henke, and as Principal Deputy Assistant Attorney General 
for the Justice Department's Office of Justice Programs, it is a 
pleasure to be here today to discuss H.R. 1707, the ``Prison Rape 
Reduction Act of 2003.''
    Mr. Chairman, H.R. 1707 focuses attention on the problem of sexual 
assault, including rape and sodomy, that exists within the nation's 
prisons and jails. Congressman Wolf and Congressman Scott have been 
diligent in their efforts to advance the discussions on prison rape and 
have shown clear leadership by introducing the ``Prison Rape Reduction 
Act.'' The Department of Justice is pleased to participate in this 
hearing.
    As you are aware, Mr. Chairman, the Justice Department supports the 
principles of this legislation. At the Department we want to ensure 
that Federal prisons address, work to prevent, and punish those that 
commit any type of sexual assault in prison, and we want to encourage 
our colleagues who manage state and local prisons to do the same. We 
are committed to reaching a consensus which would comprehensively 
address and support efforts for preventing, prosecuting, and punishing 
sexual assault and rape within the nation's prisons and jails. By 
working with all interested parties we are confident that an agreement 
can be reached.
    The Department has worked with the sponsors and supporters of this 
legislation to provide technical assistance and information prior to 
its introduction. In addition, the Department has provided information 
regarding concerns with the proposed language of the legislation. The 
Department remains committed to an ongoing dialogue that we believe 
will result in an effective and enforceable legislative product in the 
near future.
    Mr. Chairman, as the Principal Deputy Assistant Attorney General 
for the Office of Justice Programs, it is important to discuss the 
impact H.R. 1707 will have on OJP's formula grant programs which 
directly support State and local law enforcement and public safety 
activities. This issue will be the focus of my comments.
    As background, it is important to state that the Department has 
been working on the issue of prison rape for over two years. In the 
spring of 2001, the Department initiated the Prison Rape Working Group 
which worked with supporters of the legislation and with organizations 
such as the American Correctional Association (ACA). The Department 
approached the ACA and requested that they consider adopting national 
standards to deal with prison rape. At the ACA's request, the 
Department drafted a framework for the new standards and worked with 
the ACA to have them adopted. The new standards have been adopted and 
are now in effect. Some of the new standards are: 1) providing 
mandatory training courses to corrections staff in handling rape and 
sexual assault in both adult and juvenile facilities; 2) written 
policies and procedures addressing the handling of potential offenders, 
as well as intervention and treatment; 3) written policies and 
procedures requiring documented investigations of assaults and threats; 
4) written policies and procedures which ensure that sexual contact 
between prison staff and inmates is prohibited and subject to 
administrative and criminal sanctions; and 5) ensuring that victims of 
sexual assault are referred to an appropriate treatment facility, 
receive appropriate mental evaluation and counseling, and if necessary, 
are referred for long-term follow-up care. The Department believes 
that, collectively, these new standards will assist in the prevention 
of prison rape and the effective handling of rape and sexual assault 
that occurs in prisons and jails.
    Without doubt, the Department's current efforts to address prison 
rape and sexual assault will be enhanced by the $13 million provided by 
the Congress in the Department's Fiscal Year 2003 appropriations act. 
Utilizing these funds, the Department will conduct research and 
statistical analysis on victims and victimization in correctional 
environments.
    Specifically, OJP's Bureau of Justice Statistics (BJS) has 
developed plans to conduct a statistical analysis on sexual assault 
victims and victimization that measures the prevalence of that 
victimization. OJP's National Institute of Justice (NIJ) will be 
sponsoring research focusing on sexual assault offenders and offenses 
in prisons and jails. This research will provide BJS with information 
it will need to adjust their prevalence estimates to account for 
outside factors influencing the incidence of sexual assault in 
correctional environments. Working collaboratively, BJS and NIJ will 
empanel a group of recognized subject matter experts from the research 
and practitioner communities to assist both agencies in defining the 
various characteristics and factors involved in sexual assault in ways 
that will allow their objective measurement. We need solid research so 
that we can determine what steps will be most effective to root this 
horrible problem out of our prisons and jails.
    As I mentioned earlier, Mr. Chairman, the Justice Department is 
supportive of the principles of the legislation; however, ambiguity and 
concern over just a few provisions still exist. For instance, we 
believe that there are better ways to address compliance issues 
associated with the abatement of prison rape than adjustments to 
formula grant programs as they are proposed in the current bill. We 
look forward to working with the sponsors and supporters of the 
legislation to craft a workable solution that achieves our common goal 
of preventing, prosecuting, and punishing sexual assault and rape in 
our nation's correctional facilities.
    Specifically, one of the concerns that exists for OJP is the effect 
the incentive provisions of the legislation would have on existing 
grant programs as well as the practical implementation of the necessary 
augmentation that would be required to underlying formulas.
    As you are aware, under Sections 8 and 11, States that adopt 
national standards would receive up to a ten percent increase in their 
share of funding under any Federal formula grant program designated by 
the Attorney General as having a relationship to the failure to abate 
prison rape. This increase in funding would be achieved by reducing the 
shares of those States which do not comply. We have already tentatively 
identified twenty formula programs administered just by the Office of 
Justice Programs which could be impacted by these provisions. These 
programs include the Byrne Formula Grant Program, the Local Law 
Enforcement Block Grant Program, the Residential Substance Abuse 
Treatment for State Prisoners Grant Program, the Juvenile 
Accountability Incentive Block Grant Program, and Grants to Combat 
Violence Against Women.
    As an example, consider the impact of Sections 8 and 11 on State 
allocations under the Byrne Formula Grant Program. As you know, under 
the Byrne Program, the Office of Justice Programs, through its 
component, the Bureau of Justice Assistance, makes awards directly to 
States. These funds are used by States and also sub-awarded by States 
to local governments. Byrne funds can be used by States and localities 
for a broad array of public safety activities including funding police 
and sheriff departments, correctional facilities, court systems, and 
drug enforcement efforts. In Fiscal Year 2003, Congress appropriated 
approximately $497 million in Byrne Formula funds. Assuming that H.R. 
1707 was enacted into law as it is currently written, let's look, as a 
hypothetical, at five States: if California, Florida, Illinois, New 
York, and Texas were in compliance with the provisions of Section 8, 
these States, under the incentive provisions of Sections 8 and 11, 
would each receive a ten percent increase over their allocation. The 
total increase for these five States would amount to $15.6 million, or 
three percent of the entire Fiscal Year 2003 appropriation. This also 
represents a $15.6 million reduction in funds available to the 
remaining States and territories. Under this hypothetical Mr. Chairman, 
your State of North Carolina would lose $694,000; Congressman Scott's, 
Congressman Goodlatte's, and Congressman Forbes' Commonwealth of 
Virginia would lose $607,000; Congressman Chabot's State of Ohio would 
lose $952,000; Congressman Green's State of Wisconsin would lose 
$454,000; Congressman Pence's State of Indiana would lose $513,000; and 
Congressman Meehan's State of Massachusetts would lose $536,000. These 
numbers reflect a ten percent augmentation in the formula, but the 
legislation provides for substantially greater augmentation which would 
obviously result in larger changes to the underlying formulas and to 
the amounts each State would be entitled to.
    Mr. Chairman, this hypothetical focuses only on the Byrne Formula 
Program, and does not take into account potential reductions in the 
other nineteen formula programs the Office of Justice Programs 
administers or any other formula grant program throughout the Federal 
government. The $497 million of the Byrne Program represents less than 
half of the minimum total Federal funds that the Attorney General must 
identify under Section 11 for formula augmentation. Ultimately, the 
actual reduction in funds that States could see would be substantially 
more than just the Byrne program.
    The proposed formula augmentations would reduce funding for State 
and local law enforcement, including first responders such as local 
police and sheriffs departments, for State prisons and local jails, 
local narcotics task forces, shelters for battered and sexually abused 
women, substance abuse programs, efforts to protect children from 
sexual exploitation and kidnaping, and for numerous other State and 
local efforts. We must remain cognizant of the financial demands on 
State and local governments and the effects that unexpected changes in 
the availability of formula funds would have.
    The language of the legislation would present difficulties for the 
Department in implementation because of ambiguities in allocating the 
incentive funds. For instance, consider the example of both the State 
of North Carolina and the City of Raleigh being eligible for incentive 
awards. If the Byrne program is identified as a relevant program, OJP 
can easily increase North Carolina's share of Byrne funds because the 
formula funds are awarded directly to States. However, OJP does not 
award Byrne funds directly to units of local governments. States are 
responsible for making decisions on how to subaward Byrne funds to 
local governments. It is unclear how OJP could increase Raleigh's share 
of Byrne funds.
    It is also important to note another concern the Department has 
related to the statistical collection and analysis required by the 
legislation. It is of the utmost importance to the Department that the 
integrity of the statistical collection and analysis be preserved. The 
legislation currently requires BJS not only to collect, but also to 
analyze data and produce reports on that analysis in a very short time. 
We recognize the need for quick access to this information, but it must 
be balanced by providing BJS the opportunity to analyze accurately and 
sufficiently the data collected.
    Finally, the law authorizing BJS prohibits BJS from gathering data 
for any use other than statistical or research purposes. By requiring 
BJS to identify facilities ``where the incidence of prison rape is 
significantly avoidable,'' the legislation calls for BJS to make 
judgments about what level of prison rape is ``significantly 
avoidable.'' This responsibility goes beyond BJS' authorized 
statistical role.
    Mr. Chairman, the Justice Department shares your interest in 
reaching consensus upon an effective and enforceable approach to the 
problem of prison rape. I personally commit to working with the 
Committee, the sponsors, and supporters of this legislation to achieve 
our shared goal of effective prevention, prosecution, and punishment of 
prison rape. Again, thank you for the opportunity to appear before the 
subcommittee today. I would be happy to answer any question the members 
of the subcommittee might have.

    Mr. Coble. Thank you, Miss Henke.
    I said Mr. Scott and I were inflexible. I'm going to 
violate that now. We gave you 6 minutes, so I'll give the rest 
of you six as well, if you need it.
    Mr. Wall.

   STATEMENT OF ASHBEL T. WALL, II, DIRECTOR, DEPARTMENT OF 
     CORRECTIONS, STATE OF RHODE ISLAND; ON BEHALF OF THE 
   ASSOCIATION OF STATE CORRECTIONAL ADMINISTRATORS, AND THE 
                  COUNCIL OF STATE GOVERNMENTS

    Mr. Wall. Thank you, Chairman Coble, Representative Scott, 
Representative Jackson Lee, I am A.T. Wall. I'm the Director of 
the Rhode Island Department of Corrections and I'm here on 
behalf of the Council of State Governments, which represents 
all elected and appointed State officials, and also the 
Association of State Correctional Administrators, the 
professional association for the 50 Directors of Corrections 
and the Administrators of Nation's largest jail systems.
    We appreciate very much the bipartisan concern regarding 
sexual assault in correctional facilities. After all, 
protecting inmates and staff, as well as the public safety, are 
at the core of our correctional mission, a mission I have 
upheld since I began in this profession some 29 years ago.
    We in corrections know that sexual assault occurs. We 
support the objectives of this bill. We want to prevent prison 
rape, assess the extent to which it occurs, respond swiftly and 
effectively, and we recognize this bill represents a moderate 
approach to dealing with the issue. We also recognize that, as 
corrections officials, we are accountable for the operations of 
our systems, including the implementation of the initiatives 
that come about as a result of this legislation.
    There is some provisions that we, as directors of 
corrections, believe would impede as opposed to assisting the 
efforts to reduce prisoner rape. We are also concerned that the 
bill not allocate significant resources to combat prison rape 
while overlooking another major issue in corrections that has 
widespread implications for the public safety.
    Some particular changes that we would like to propose to 
the bill: first, national statistics. The Department of Justice 
is assigned to do a statistical report. We have two concerns. 
One is definitional issues, what constitutes rape in a 
correctional context. Sorting out consensual sex in a prison 
context can be complicated. The bill is silent as to whether 
sexual assault includes staff-on-inmate sexual assault, as well 
as inmate-on-inmate sexual assault.
    We are also concerned that the bill draw on a wide variety 
of data sources beyond simply looking at self reports and 
inmate surveys. So we would recommend that the bill direct the 
Department of Justice to seek guidance from an advisory group 
in working out definitions and survey techniques, the group to 
include not only corrections administrators but prosecutors, 
police, victim advocates and former inmates.
    Second, the review panel. The review panel is charged with 
holding public hearings, and administrators who are from the 
random sample selected by BJS and whose rates of sexual assault 
exceed the median will be brought forward to testify why their 
facilities have high rates. The concern that we have is that 
the panel should be charged with developing an approach to 
analyzing the data by interviewing the victims, administrators 
from a random sample of selected facilities surveyed and not 
simply rely on the public hearing approach but, rather, take a 
broader approach if the goal is to understand the context and 
causes of the issue.
    Third, the national standards. We would like to assure that 
an accrediting organization such as ACA, that have done much 
work in this area, are consulted as part of the reviewing of 
the standards.
    Fourth, the incentives to testify and comply. Those have 
been covered by Miss Henke. We're concerned that, in fact, as 
written, the language of the bill, which is intended to reward 
jurisdictions that are taking serious steps to combat sexual 
assault in prison and holding accountable those other systems, 
won't achieve those objectives for some of the reasons that 
Miss Henke identified.
    We applaud the commitment to helping us protect inmates. We 
are also deeply concerned that a Federal initiative not ignore 
an emerging crisis in our field that has major implications for 
the safety of staff, inmates, and the general public.
    As you well know--in fact, Chairman Coble, you alluded to 
it to some degree in your introductory remarks--nearly 
unprecedented fiscal problems are prompting governors to look 
at dramatic cuts to corrections' budgets. There are three ways 
to cut correctional budgets. One is to eliminate programs. The 
fact of the matter is, they're already thread-bear. There is 
not a lot of money to be gained that way.
    The second is in operations, looking at staffing and 
security and making cuts there. The problem with that, of 
course, is that will compromise the safety of inmates as well 
as staff and, frankly, it will compromise the very objectives 
that H.R. 1707 seeks to achieve.
    The third way to get a handle on correctional costs is by 
managing correctional populations differently, limiting the 
rates of growth, taking a look at the sheer numbers of people 
who are incarcerated in facilities. In managing growth in 
corrections, we are engaging in high-stakes decisions as we 
look at who's in there, how long they should stay, how well 
prepared they are for release, who should be supervised in the 
community as opposed to in custody, and how they should be 
supervised. Those are very important decisions and the risk is 
that they're going to be made without resources to determine 
that they are informed decisions. Right now, there is the risk 
that they will be made nearly blind, that States will be 
playing Russian roulette with major public safety implications.
    What we are looking for is legislation to address this 
acute need for immediate targeted technical assistance in 
managing correctional costs without compromising public safety. 
We don't want to simply release hundreds of inmates as has been 
done in other jurisdictions. We need data, we need expertise, 
we need forms of technical assistance, such as the center that 
is established and DOJ would provide.
    So thank you for giving us the opportunity to present 
specific, practical changes that will help correctional 
administrators combat rape. We hope that modifying the 
legislation will help us considerably to protect staff and 
inmates and ensure that deep cuts don't jeopardize the safety 
of the public as we look at correctional issues. We look 
forward to working with a truly impressive coalition that is 
organized so that we can incorporate our recommendations into 
the bill.
    Thank you very much.
    [The prepared statement of Mr. Wall follows:]

                Prepared Statement of Ashbel T. Wall, II

    Good afternoon. Thank you Chairman Coble and Ranking Member Scott 
for inviting me to testify regarding H.R. 1707, The Prison Rape 
Reduction Act of 2003.
    My name is Ashbel T. Wall, and I am the Director of Corrections for 
the State of Rhode Island. Our corrections system is unified, meaning 
it includes both prisons and jails. Our average daily population is 
3,500 inmates, housed in 8 institutions, and we receive about 17,000 
commitments a year.
    I am testifying today on behalf of the Council of State Governments 
(CSG) and the (ASCA) Association of State Correctional Administrators. 
CSG is a membership association serving all elected and appointed and 
state government officials; ASCA represents the 50 state corrections 
directors and the administrators of the largest jails systems.
    Our organizations appreciate very much the bipartisan concern among 
members in Congress about sexual assault in corrections facilities. 
Protecting staff and inmates alike, in addition to maintaining 
community safety, is the core of our mission.
    We know sexual assault occurs in prisons and jails, including our 
facilities in Rhode Island. We also know this is an issue that has been 
difficult to measure in our state, as well as nationally, let alone to 
compare rates among states and counties.
    For these reasons, we support most of the objectives of H.R. 1707: 
we want to prevent prisoner rape; we want to assess the extent to which 
it occurs in our systems; and we want to respond swiftly and 
effectively when inmates are sexually assaulted.
    We appreciate efforts to date by sponsors of the bill to 
incorporate in H.R. 1707 many changes that the corrections community 
recommended to earlier versions of this bill. There are, however, still 
some provisions remaining in H.R. 1707 that would impede--rather than 
assist--corrections administrators' efforts to reduce sexual assault of 
inmates and end it altogether. We also are concerned that the bill 
allocates significant resources to combat prisoner rape while 
overlooking those issues in corrections that represent the greatest 
risk to the public in general.
    My testimony will explain the concerns elected officials and 
policymakers serving Republican and Democratic governors alike have 
about the bill. I will also suggest changes to particular provisions in 
the bill that we believe would improve the legislation and make it 
state-friendly without compromising its purpose.

                   1. NATIONAL PRISON RAPE STATISTICS

Recommendation:  Provide additional guidance to the authors of the 
        study to ensure it reflects an accurate, comprehensive 
        assessment of inmate sexual assault.
    Like the supporters of the bill, we think a report prepared by the 
Department of Justice that assesses the extent to which prisoner rape 
occurs in prisons and jails across the country would be useful. The 
study, as it is currently described in H.R. 1707, however, would 
unlikely yield such a document.
    The legislation overlooks important considerations that will need 
to be made in developing and designing the study. First, the bill does 
not sufficiently define what constitutes rape in a correctional 
facility. Sorting out what is and is not consensual sex in a prison is 
a complicated matter. Second, H.R. 1707 does not explicitly state 
whether the study should capture information about staff-on-inmate 
sexual assault, which, itself, is a complex issue. There is no such 
thing as consensual sex between staff and an inmate; by statutes, such 
incidents are a crime in nearly every state. The bill drafters need to 
state explicitly whether these data should be included in the study. 
Third, the legislation minimizes the importance of drawing upon data 
sources other than inmate surveys only.
    We recommend the bill instruct DOJ to seek guidance regarding each 
of the above issues from an advisory group that would include 
corrections administrators, prosecutors, police chiefs, victim 
advocates, and former inmates. That way, we can be confident that the 
BJS study reflects an accurate and comprehensive assessment of prisoner 
rape in correctional facilities.

                     2. REVIEW PANEL ON PRISON RAPE

Recommendation:  Request testimony or input from administrators who 
        represent a random selection of institutions
    Like the supporters of H.R. 1707, we think it would be useful for 
the Review Panel to hear from (and question) corrections administrators 
with varying rates of sexual assault in their facilities; such 
testimony should help to inform the annual report that DOJ issues. 
Instead of generating a constructive exchange, however, the hearing 
process that H.R. 1707 currently proposes would polarize discussion.
    According to the legislation, corrections administrators summoned 
to testify would represent facilities that appear to have high rates of 
sexual assault. In fact, these corrections administrators would 
represent only those facilities with a high rate of sexual assault 
among the small group of institutions randomly selected for the survey. 
Consequently, corrections directors would likely devote much of their 
testimony to an explanation of why their participation in the hearing 
inaccurately suggests that they operate the most dangerous institutions 
in the country.
    For these reasons, we recommend that the panel be charged with 
developing an approach to analyzing the data captured through the study 
and interviewing various experts and victims and administrators from a 
random selection of facilities surveyed ensures that hearings will be 
constructive and useful.

                         3. NATIONAL STANDARDS

Recommendation:  Require the Commission to consult accrediting 
        organizations that currently have standards (or are in the 
        process of developing such standards) on sexual assault
    The members and staff of accrediting organizations such as the 
American Correctional Association have spent time and resources 
preparing standards that address issues relating to sexual assault and 
the conditions of a facility or system that facilitate sexual assault. 
Nevertheless, the bill does not ensure that these accrediting 
organizations will be consulted on the development of the Commission's 
standards--or even recognize that these organizations already have, or 
are in the process of revising or developing, such standards. The 
National Prison Rape Reduction Commission (which is distinct from the 
Panel that the bill also establishes) should be directed to consult 
accrediting organizations that currently have standards on sexual 
assault, and to review existing standards and standards under 
development, before making its final report.

     4. INCENTIVES TO TESTIFY AND COMPLY WITH COMMISSION STANDARDS

Recommendation:  Limit the instances in which jurisdictions would be 
        eligible for an increase and narrow the definition of the 
        ``source of funds for increases'' from which the 10 percent 
        reward will be drawn
    We appreciate that the supporters of the bill would like to reward 
corrections administrators who adopt the standards developed by the 
National Commission. We also recognize that the members of Congress 
want to see administrators of systems with seemingly high rates of 
prisoner rape held accountable. Two examples illustrate, however, 
however, that, as currently written, the bill would achieve neither of 
these objectives effectively.
    First, the bill provides an increase in federal grant funding to 
jurisdictions represented at the hearing convened by the National 
Review Panel. Because representatives of those jurisdictions that have 
seemingly high rates of prisoner rape are asked to testify, the bill 
appears to reward systems that do not necessarily merit an increase. 
Furthermore, funds for this increase would be drawn from ``any [entity] 
not entitled to increases under this act.'' Accordingly, it is 
conceivable that a jurisdiction would lose federal funding only because 
it had the ``misfortune'' of not being included in the random sample.
    Second, the universe of DOJ grants that a jurisdiction could see 
reduced includes funding support for a broad spectrum of issue-areas, 
such as victim compensation and community policing, which are 
completely beyond the scope of correctional administrators' authority. 
As a result, the state and local government officials who would be held 
accountable for reducing prisoner rape would be those who are powerless 
to ensure compliance with the standards imposed by the legislation.

                 5. THE EMERGING CRISIS IN CORRECTIONS

Recommendation:  Make available limited, immediate, assistance, 
        including peer-to-peer technical assistance, to jurisdictions 
        seeking to cut corrections costs without compromising the 
        safety of inmates, staff, or the public in general.
    While we applaud Congress' commitment to helping us protect 
inmates, we are deeply concerned that this federal initiative ignores 
an emerging crisis in corrections that has major implications for 
inmates and for the safety of staff and the general public. Nearly 
unprecedented fiscal problems are prompting governors and legislatures 
to recommend dramatic cuts to corrections budgets. Corrections 
administrators trying to find such savings have three options. First, 
we could reduce spending on institutional security, but that would 
compromise the safety of inmates (not to mention staff)--which is 
precisely what H.R. 1707 intends to increase. Second, we could cut 
programming expenses. But prison and jail-based services are already 
threadbare. They offer little or no potential for savings. And, given 
that nearly every inmate will return to the community, further gutting 
of these programs will impact public safety adversely.
    Really, the only way savings of the scale that governors and 
legislatures are looking for from our agencies can be achieved only by 
managing our prison population differently. In some states, that may 
mean limiting the rate of the system's growth. Accordingly, state 
officials must soon make high-stakes decisions about their prison 
population--who is in there, how long they should stay, how they are 
prepared for release, and how they are supervised in the community. Yet 
policymakers are without the resources to ensure their decisions are 
informed ones. As a result, with budgetary pressures in the states as 
acute as they are, state and local government officials will need to 
make nearly blind decisions--Russian Roulette with major public safety 
implications.
    If Congress is to pass any legislation that addresses the safety of 
inmates, the accountability of corrections administrators, and the 
efficiency and effectiveness of federal expenditures through existing 
programs (as H.R. 1707 does), it needs to address state and local 
government officials' acute need for immediate, targeted, peer-to-peer 
assistance that would assist them manage corrections costs effectively 
without compromising public safety. We are aware of states, such as 
Kentucky, that in recent months, have responded to extraordinary fiscal 
pressures by releasing hundreds of offenders from prison, some of whom 
subsequently committed high-profile crimes, generating a firestorm of 
public criticism. There are other very recent developments in states 
that we all hope to avoid: in California, legislators who voted for a 
bill making certain felons eligible for release, later asked the 
governor later to veto the legislation because they realized that it 
could be applied to some serious and violent offenders. These are 
experiences that other states could avert if they had the benefit of 
data, expertise, other forms of technical assistance, and information 
about what has worked in other jurisdictions across the country.

                               CONCLUSION

    As this testimony reflects, we believe there are some specific, 
very practical changes that can be made to this legislation that would 
help corrections administrators across the country combat prisoner 
rape. More importantly, modifying the legislation as we have suggested 
would help us considerably with our efforts to protect staff and 
inmates alike and ensure that deep cuts imposed on corrections agencies 
do not jeopardize the safety of the general public. We look forward to 
working with members of the Committee, your staff, and the impressive 
coalition of organizations supporting the bill to incorporate these 
recommendations in the bill. Thank you.

    Mr. Coble. Thank you, Mr. Wall.
    Mr. Kehoe.

           STATEMENT OF CHARLES J. KEHOE, PRESIDENT, 
               AMERICAN CORRECTIONAL ASSOCIATION

    Mr. Kehoe. Thank you, Mr. Chairman. I am Charles Kehoe, 
President of the American Correctional Association. I wish to 
thank you and Ranking Member Scott for inviting us here today 
to discuss H.R. 1707, the ``Prison Rape Reduction Act.''
    I would like to begin by commending the work of 
Representative Frank Wolf and Representative Bobby Scott on 
this issue. As a long-time Virginian, I have long admired their 
dedicated service to the Commonwealth and to our Nation.
    I am here today to represent the American Correctional 
Association. ACA was founded in 1870 and is the Nation's only 
professional association representing all facets of 
corrections. It has nearly 19,000 members in all 50 States and 
more than 40 foreign countries. We promote broad-based public 
policies on crime and corrections, develop professional 
standards, administer a national accreditation program, and 
provide educational programs for corrections professionals at 
all levels. In short, we are a multi-disciplinary organization 
of corrections professionals.
    In his remarks introducing the Prison Rape Reduction Act of 
2003, Representative Wolf said prison rape has nothing to do 
with being tough on crime; it has to do with making our 
communities safer, reducing recidivism, and controlling the 
spread of communicable diseases. I agree completely with 
Congressman Wolf. In fact, those are central tenants of the 
American Correctional Association, and we wholeheartedly 
support the efforts of Mr. Wolf and Mr. Scott, as well as all 
others involved in their quest to reduce the incidence of 
prison rape.
    The ACA supports the objectives of H.R. 1707. We believe 
that there should be a zero tolerance standard for the 
incidence of prison rape. We believe that prison officials 
should make the prevention of prison rape a priority. We want 
to ensure that prison officials are accountable for what goes 
on within their institutions. We thank the bill's sponsors for 
incorporating into H.R. 1707 many changes that the corrections 
profession recommended in earlier versions of the legislation. 
However, there remain a few provisions of H.R. 1707 about which 
we retain some reservations and would like to see clarified.
    The strength of the ACA is in the fact that we are the only 
organization that accredits total correctional facility 
operations, including health care. We have in excess of 1,600 
facilities and programs that are involved in the process.
    Our profession has, within the past 3 years, adopted newer 
and more meaningful performance-based standards, standards that 
better define the value of what we do and how we do it.
    The ACA Standards Committee, in January of 2003, finalized 
the adoption of several specific standards that address sexual 
misconduct and prison rape. First, we revise the intake 
screening procedures that would require inmates to be 
specifically identified who are vulnerable or have tendencies 
to act out sexually aggressive behavior.
    It would also require that investigations be conducted and 
documented whenever there is an assault or threat of a sexual 
assault. And it would require that offenders identified who 
have histories of sexual assaultive behavior are assessed by 
mental health or other professionals as such.
    Those with a history of assaultive behavior would be 
identified, monitored and counseled.
    Lastly, the standards would require that offenders at risk 
for victimization are identified, monitored and counseled.
    H.R. 1707 would establish the National Prison Rape 
Reduction Commission, established to study prison rape, report 
findings to Congress, and propose national standards for 
prevention. However, there is no guarantee that those, 
including the ACA, who have unique experience in the 
development and implementation of standards, will be consulted 
in the course of the Commission's work.
    We would like to see a requirement that the Commission 
consult entities involved in accreditation in the development 
of national standards for the reduction of prison rape.
    H.R. 1707 also calls for States to seek re-accreditation 
every 2 years. We have found it to be more economical and more 
efficient to have a 3-year accreditation process and would so 
recommend that for your consideration.
    H.R. 1707 creates a Review Panel on Prison Rape to hear 
from correctional administrators whose departments are 
experiencing high rates of prison rape. The goals of the panel 
are no different than those of ACA accreditation--to ensure 
that corrections is open and accountable for the implementation 
of standards to prevent prison rape.
    The legislation establishes this panel with three 
individuals. However, the legislation provides little guidance 
for this panel. We believe the panel should be structured in 
such a way to ensure that the panel promotes a dialogue which 
allows for a true understanding of the incidence of prison rape 
and which aids in the study and determination of the true 
impact of prison rape.
    We, therefore, recommend that a majority of the members of 
the Review Panel on Prison Rape be drawn from the law 
enforcement community and have expertise in the operation of 
correctional facilities.
    H.R. 1707 also calls for a study of the incidence of prison 
rape. However, it overlooks an important fact that needs to be 
taken into account. First, the legislation as drafted does not 
adequately identify what constitutes rape in a correctional 
facility. Issues surrounding consensual sex are not addressed, 
and further defining what is meant by prison rape is necessary.
    Secondly, the legislation does not specifically address 
whether prison rape would address staff-on-inmate sexual 
assault, as Director Wall mentioned earlier. Thus, we would 
recommend that the Department of Justice, in the development of 
a study relating to the incidence of prison rape, consult 
correctional administrators, prosecutors, victim advocates, 
former inmates and others who have direct institutional 
knowledge, in addition to the self-reporting by inmates.
    As you well know, State and local correctional agencies 
across the country are grappling with shrinking budgets. In 
this environment, the efforts of the supporters of the bill to 
reward correctional administrators for their efforts in meeting 
the requirements of this bill are commendable. We appreciate 
the extent to which the sponsors of H.R. 1707 have gone to 
ensure that this bill does not place unfunded mandates upon the 
States.
    Specifically, we appreciate the inclusion of language that 
says ``significant additional costs compared to the costs 
presently expended by Federal, State, and local prison 
authorities'' should be imposed. However, we believe that this 
term needs to be further defined. Thus, we recommend that the 
legislation be revised to define what, if any, further costs 
the implementation of national standards can place upon States 
and localities without providing Federal funding for the 
implementation of the standards.
    I'm going to skip ahead. Actually, I think I'm out of time.
    Mr. Coble. Thank you, Mr. Kehoe.
    Mr. Scott. Mr. Chairman, could he just read the 
recommendations? Since you have a couple of sentences on each 
one, if you can just read the recommendations, I would 
appreciate it.
    Mr. Kehoe. All right.
    We have recommendations relating to the manner in which 
funding will be distributed to States under the legislation, 
and reservations relating to the designation of programs for 
which funding for the implementation of this legislation be 
drawn. The current writing provides for an increase in Federal 
grant funding to jurisdictions represented at the hearings 
convened by the Panel. The legislation calls for these 
jurisdictions to be selected by among those included in a 
random sample of jurisdictions. Thus, those jurisdictions that 
are not a part of the random sample used to determine the 
incidence of prison rape would be ineligible for funding under 
the provisions of this legislation. In effect, this approach 
effectively rewards jurisdictions that appear to have a high 
incidence of rape, while reducing the funding available to 
jurisdictions that are not a part of the random sample.
    To simplify, if all 50 States are in compliance with the 
provisions of H.R. 1707, it would reward the 10 States that are 
chosen from the sample and at the same time 50 other States 
would not be so designated. Under the legislation, the 10 
States chosen may be eligible for a 10 percent increase in 
funding from certain formula grant programs. Does this does 
mean that the 40 States not chosen at random are not eligible 
for an increase and could actually see decreased Federal 
assistance?
    Funding for the implementation of H.R. 1707 is to come from 
the existing universe of formula grant programs, most of which 
are completely beyond the scope of correctional administrators' 
authority. In addition, relatively few DOJ grant programs are 
designated to provide aid exclusively to corrections. thus, 
other elements of State and local law enforcement could see 
reduced funding as a result of this legislation.
    I must ask whether the funding from victims' assistance 
programs, community policing or drug treatment programs could 
be used to fund the implementation of this act. Even more 
alarming is that as the legislation is currently written, the 
term ``formula grant programs'' could go beyond DOJ programs 
that impact law enforcement and corrections. Given the billion 
dollar minimum included in the legislation, it is likely that 
you would have to go outside of the Department of Justice 
programs. Thus, the Attorney General----
    Mr. Coble. Mr. Kehoe, why don't you suspend.
    Mr. Kehoe. All right, Mr. Chairman.
    [The prepared statement of Mr. Kehoe follows:]

                 Prepared Statement of Charles J. Kehoe

    Thank you for the opportunity to be here today. I am Charles Kehoe, 
President of the American Correctional Association. I wish to thank 
Chairman Coble and Ranking Member Scott for inviting me here today to 
discuss H.R. 1707, the Prison Rape Reduction Act of 2003.
    I would like to begin today by commending the work of 
Representative Frank Wolf and Representative Bobby Scott on this issue. 
As a former Director of the Virginia Department of Youth and Family 
Services, and a long-time citizen of Virginia, I have long admired 
their dedicated service to the Commonwealth.
    I am here today to represent the American Correctional Association 
(ACA). ACA was founded in 1870 and is the nation's only professional 
association representing all facets of corrections. ACA has nearly 
19,000 individuals members from all 50 states and more than 40 
countries. We promote broad-based public policies on crime and 
corrections, develop professional standards, administer a national 
accreditation program and provide educational programs for corrections 
officials at all levels. In short, we are a multi-disciplinary 
organization of professionals representing all facets of corrections 
and criminal justice, including federal, state, and military 
correctional facilities and prisons, county jails and detention 
centers, probation/parole agencies, and community corrections/halfway 
houses. ACA members bring a broad base of expertise that no other 
organization in the world can offer to the field.
    For more than 130 years, ACA has been the driving force in 
establishing national and international correctional policies. ACA is 
recognized as a worldwide leader on correctional policy and standards. 
Our standards pertain to both adult and juvenile corrections, and 
include guidelines designed to assist states and other agencies in 
their efforts to implement correctional policy and procedure, which 
provide safe, secure, and humane facilities for staff and offenders 
alike.
    In his remarks introducing the Prison Rape Reduction Act of 2003, 
Representative Wolf said ``prison rape has nothing to do with being 
tough on crime; it has to do with making our communities safer, 
reducing recidivism, and controlling the spread of communicable 
diseases.'' I agree completely with Congressman Wolf. In fact, those 
are central tenants of the American Correctional Association, and we 
whole-heartedly support the efforts of Mr. Wolf and Mr. Scott as well 
as all others involved in their quest to reduce the incidence of prison 
rape.
    The American Correctional Association supports the objectives of 
H.R.1707. We believe that there should be a zero-tolerance standard for 
the incidence of prison rape. We believe that prison officials should 
make the prevention of prison rape a priority. We want to ensure that 
prison officials are accountable for what goes on within their 
institutions. We thank the bill's sponsors for incorporating into H.R. 
1707 many changes that the corrections profession recommended to 
earlier versions of the legislation. However, there remain a few 
provisions of H.R. 1707 about which we retain some reservations or 
which we would like to see clarified.
    The strength of the American Correctional Association is in the 
fact that we are the only organization that accredits total 
correctional facility operations, including health care programs. We 
have in excess of 1,600 facilities and programs that are involved in 
the accreditation process, including prisons and jails, boot camps, 
correctional industries, electronic monitoring, training academies, and 
community-based programs, for both adults and juveniles. We currently 
have accredited facilities or programs in 46 of the 50 states. Florida, 
Louisiana, New York, Ohio and Tennessee have accredited 100% of their 
correctional programs. And, approximately 95 percent of the Federal 
Bureau of Prisons' facilities are also accredited.
    Our profession has, within the past three years, adopted newer and 
more meaningful Performance-based Standards--standards that better 
define the value of what we do, how we do it, why we do it and how 
successful we are through outcome measures. It is through the 
implementation of these measures that ACA has positioned itself to more 
closely collaborate with all elements within the criminal justice 
system to address specific issues facing the correctional profession, 
including those we are here to discuss today in relationship to the 
Prison Rape Reduction Act of 2003.
    ACA's Standards Committee, in January 2003, finalized the adoption 
of several specific standards that are intended to significantly impact 
sexual misconduct and prison rape. Working closely within and outside 
the corrections profession, the Standards Committee adopted standards:

        I. to revise the intake screening requirements for all 
        offenders to specifically identify those who are vulnerable or 
        have tendencies to act out with sexually aggressive behavior;

        II. to require that an investigation be conducted and 
        documented whenever an assault or threat of assault is 
        reported;

        III. to require that offenders identified with history of 
        sexually assaultive behavior are assessed by mental health or 
        other qualified professionals. Those with history of sexual 
        assaultive behavior are identified, monitored and counseled; 
        and,

        IV. to require that offenders at risk for victimization are 
        identified, monitored and counseled.

    H.R. 1707 would establish the National Prison Rape Reduction 
Commission, established to study prison rape, report its findings to 
Congress and propose national standards for the prevention of prison 
rape to the Attorney General. However, there is no guarantee that 
those, including the ACA, who have unique expertise and experience in 
the development and implementation of standards for correctional 
programs will be consulted in the course of the Commission's work. We 
would like to see a requirement that the National Prison Rape Reduction 
Commission consult entities involved in accreditation in the 
development of national standards for the reduction of prison rape.
    H.R. 1707 calls for states to seek reaccreditation every two years. 
However, ACA's current accreditation program has established a three-
year cycle for the accreditation of correctional programs and we have 
found this time frame to be cost-effective and to provide adequate 
feedback relating to the state of operations within correctional 
facilities and programs. We believe that requiring states to seek 
accreditation every two years would result in a substantial increase in 
the costs associated with accreditation. Therefore, we recommend that 
the accreditation of correctional programs under any National Prison 
Rape Reduction Commission standard occur every three years.
    Openness and accountability are important qualities in the 
administration of correctional systems. In fact, in ACA's accreditation 
process, which I discussed, we actively seek the input of those both 
inside and outside of the profession. We hold public hearings and we 
invite diverse groups representing a wide variety of interests to 
provide comments on our proposed standards. We want to ensure that the 
public has confidence that corrections departments are doing their job 
to the best of their abilities and that departments of corrections 
conform to the highest guidelines of our profession.
    H.R. 1707 creates a Review Panel on Prison Rape to hear from 
correctional administrators whose departments are experiencing high 
rates of prison rape. The goals of the panel are no different from 
those of the ACA accreditation process--to ensure that corrections is 
open and accountable for the implementation of standards to prevent 
prison rape. The legislation establishes that the panel consists of 
three individuals with knowledge or expertise of the issues to be 
studied by the panel. However, the legislation provides little guidance 
for this panel. We believe that this panel should be structured in a 
way to ensure that the panel promotes a dialogue which allows for a 
true understanding of the incidence of prison rape and which aids in 
the study determining the true impact of prison rape.
    We recommend that a majority of the members of the Review Panel on 
Prison Rape be drawn from the law enforcement community and have 
expertise in the operation of correctional facilities. This would help 
to ensure that the panel does not promote confrontation but rather 
builds a dialogue allowing for a true understanding of the problems 
those testifying face.
    H.R. 1707 calls for a study of the incidence of prison rape; 
however, it overlooks important factors that need to be taken into 
account in the development and implementation of the study. First, the 
legislation, as drafted, does not adequately identify what constitutes 
rape in a correctional facility. Issues surrounding consensual sex are 
not addressed, and further defining what is meant by prison rape is 
necessary. Secondly, the legislation does not specify whether prison 
rape would include staff-on-inmate sexual assault. While there is no 
such thing as consensual sex between correctional employees and 
inmates, incidents of staff and inmate sex constitutes a crime in 
nearly every jurisdiction. Finally, the legislation places a great 
emphasis on prisoner surveys for determining the incidence of prison 
rape. However, in all surveys, not just those on issues as complex as 
prison rape, individuals tend to over-report the incidence. Thus, we 
recommend that the Department of Justice, in the development of a study 
relating to the incidence of prison rape, consult correctional 
administrators, prosecutors, victim advocates, former inmates and 
others with direct institutional knowledge in the development of the 
study.
    As you well know, state and local correctional agencies across the 
country are grappling with shrinking budgets and an expanding mandate. 
In this environment, the efforts of the supporters of the bill to 
reward correctional administrators for their efforts in meeting the 
requirements of this bill are commendable. We appreciate the extent to 
which the sponsors of H.R. 1707 have gone to ensure that this bill does 
not place unfunded mandates upon the states. Specifically, we 
appreciate the inclusion of language in H.R. 1707 preventing the 
adoption of measures that would impose ``significant additional costs 
compared to the costs presently expended by Federal, State, and local 
prison authorities.'' However, we believe that this term needs to be 
further defined. Thus, we recommend that the legislation be revised to 
define what, if any, further costs the implementation of national 
standards can place upon states and localities without providing 
federal funding for the implementation of such standards.
    Furthermore, we have reservations relating to the manner in which 
funding will be distributed to states under this legislation and 
reservations relating to the designation of programs from which funding 
for the implementation of this legislation will be drawn. Currently, 
H.R. 1707 provides for an increase in federal grant funding to 
jurisdictions represented at hearings convened by the Review Panel on 
Prison Rape. The legislation calls for these jurisdictions to be 
selected from among those included in a random sample of jurisdictions. 
Thus, those jurisdictions that are not a part of the random sample used 
to determine the incidence of prison rape are ineligible for funding 
under this provision of the legislation. In effect, this approach 
effectively rewards those jurisdictions that appear to have a high 
incidence of prison rape while reducing the funding available for those 
jurisdictions that were not part of the random sample.
    To simplify this concept, let's assume that all fifty states are in 
compliance with the provisions of this legislation. Under the 
provisions of H.R.1707, ten states are chosen at random to participate 
in the sample. This means that forty states are not chosen. Under the 
legislation, the ten states chosen may be eligible for a ten percent 
increase in funding from certain ``formula grant programs.'' Does this 
mean that the forty states not chosen at random are not eligible for an 
increase and could actually see decreased federal assistance?
    Furthermore, funding for the implementation of H.R. 1707 is to come 
from the existing universe of ``formula grant programs,'' most which 
are completely beyond the scope of correctional administrators' 
authority. In addition, relatively few current DoJ grant programs are 
designed to provide aid exclusively to corrections. Thus, other 
elements of state and local law enforcement could see reduced funding 
as a result of this legislation. I must ask whether funding from 
victim's assistance programs, community policing or drug treatment 
programs should be used to fund the implementation of this act. Even 
more alarming is that as the legislation is currently written, the term 
``formula grant programs'' goes beyond DoJ programs that impact law 
enforcement and corrections. Given that the $1 billion minimum included 
in the legislation, it is likely that you would have to go outside of 
DoJ programs. Thus, the Attorney General could identify highway funds, 
education funds, HUD funds--in theory, any federal formula grant 
program, could be tapped into under the provisions of this legislation.
    Thus, we recommend that the reward structure for the implementation 
of H.R. 1707 be restructured in a manner that ensures that states do 
not in any manner see a reduction in funding from any formula grant 
program as a result of this legislation. Furthermore, the funding 
mechanism of this legislation should be restructured to ensure that the 
funding of the Prison Rape Reduction Act does not impact federal 
programs of which corrections is not the primary beneficiary.
    States across the nation are experiencing extraordinary fiscal 
crises that are prompting governors and legislatures to recommend 
dramatic cuts to all areas of state government. Correctional 
departments have not been immune to these cuts, and, in fact, have been 
among the hardest hit. While corrections appreciates the attention that 
the issue of prison rape has received from the United States Congress, 
we can not help but draw your attention to the larger issues currently 
facing our profession. Thus, the American Correctional Association 
joins the Council of State Government and the Association of State 
Correctional Administrators in recommending that this legislation be 
adapted to address state and local government officials' acute need for 
immediate, targeted, peer-to-peer assistance that would assist in the 
management of corrections in a cost-effective manner without impacting 
the safety of correctional employees, inmates, or the community.
    The primary mission of correctional departments across this country 
is to protect the public. Our mission also includes assisting in the 
prevention and control of delinquency and crime. Prison rape is a crime 
and we will continue to do our duty to prevent it.
    Mr. Wolf was absolutely correct when he said that the issue of 
prison rape is not about being tough on crime. Prison rape is an issue 
centered upon the human rights and the human dignity of those within 
our nation's prisons and jails. Yet, if we are truly concerned with the 
human rights and human dignity of offenders, we must, as a society, 
ensure that all citizens receive access to health care, access to 
education, and access to a living wage. This investment will go much 
farther to making our communities safer, to reducing recidivism, and to 
controlling the spread of communicable diseases than anything else that 
we can do.
    Prison rape is caused by larger, societal problems. It is a symptom 
of a disease and not the disease itself. And, ultimately, the 
prevention of criminal and delinquent behavior depends on the will of 
the individual and the constructive qualities of society and its basic 
entities: family, community, school, religion, and government. Without 
a significant investment in research and in the development of our 
communities, we will not be successful in achieving the admirable goals 
of making our communities safer, reducing recidivism and controlling 
the spread of communicable disease both inside and beyond our 
correctional systems.
    The corrections profession applauds the leadership of 
Representatives Wolf and Scott on this issue. And, we feel that if 
implemented properly, this legislation will have an impact on prison 
rape. We hope that it will be cost effective. We hope that it will make 
are communities safer. We hope that it will reduce recidivism. And we 
hope that it will reduce the spread of communicable disease. ACA looks 
forward to working with you on this noble pursuit. And, again, I wish 
to thank you all for inviting me here today.

    Mr. Coble. Let's get to Mr. Hall, and then we can come 
back. Since just Bobby and I are here, we probably will have 
two rounds of questioning.
    Mr. Hall.

             STATEMENT OF FRANK A. HALL, DIRECTOR, 
                        THE EAGLE GROUP

    Mr. Hall. Mr. Chairman, my name is Frank Hall. I am 
currently a consultant in Washington, D.C. I spent 35 years in 
the corrections business, starting my career, Mr. Chairman, in 
your home State of North Carolina, where I spent 6 years and 
learned a great deal from a lot of very bright and capable 
people who were very committed to developing a humane and 
effective corrections department.
    I have had an opportunity to run three State correctional 
systems over the last 35 years, two large local corrections 
systems, as well as a juvenile justice system in the State of 
New York. I am gratified by the comments of my colleagues, Mr. 
Wall and Mr. Kehoe, who seem to be very supportive of the 
intent of this legislation and seem to be very supportive of 
the direction in which we're trying to move. I commend the 
leadership of Representative Wolf and Representative Scott. I 
think they've done a remarkable job focusing on an issue that I 
think too often we have avoided and tends to sort of be in the 
recesses of our institutions.
    We don't tend to talk about this issue. There has been 
almost a reluctance to talk about this issue throughout our 
history. But I think it's a major problem. It is not only a 
problem of public safety and safety in our institutions for 
both staff and inmates, but I think it is, very frankly, a 
public safety issue and a public health issue.
    But I'm gratified by the comments, because I think these 
two people represent what is best in the corrections 
profession. There are a lot of very fine people working in this 
business that would like to solve this problem and would like 
to be able to come before this Committee or any other Committee 
in Congress and say this problem has been solved, thanks to 
your efforts and thanks to your help.
    I think there are several concerns that have been raised 
about the direction of the bill, most of which seem to address 
issues of funding and resource allocation, compliance issues. 
To me, these are relatively solvable problems. Congress deals 
with these problems almost every day, and I'm confident that 
these problems can be resolved.
    But the reality of it is, you know, this problem of prison 
rape affects people today. Probably in the last 20 years, a 
million prisoners have been raped in the United States of 
America. I think that's unacceptable to all of us, not just in 
the corrections business but for every Member of Congress and 
every person in the United States.
    Unfortunately, in spite of efforts to accredit our 
facilities in this country, a still relatively small percentage 
of correctional institutions are accredited. The fact of it is 
we operate thousands of jails in this country, police lockups, 
and there are 630,000 people alone in the local jail system. 
Just 2 years ago, if you counted the number of admissions and 
discharges from the local jails and the prisons, we're talking 
about 10 million people. Many people in the jail system haven't 
even been found guilty of a crime. So it's a major issue and it 
affects people, it affects the public health.
    I think it requires Federal action for a very simple 
reason: we haven't done it at the State level. I've been at the 
State and local level all my life, but we haven't yet solved 
this problem. In spite of mass resources and money and support, 
we still haven't resolved this issue. In spite of much progress 
in the corrections business, we still haven't resolved this 
issue.
    The other reality is--and I think it's one we have to 
face--most prison staff are not adequately trained to prevent, 
to report, to treat and to deal with the issue. This bill 
provides some training, it provides opportunities for people to 
get resources to help deal with some of these issues. So we're 
not where we need to be, Mr. Chairman and Members of the 
Committee.
    The bill doesn't attempt to solve all the world's problems, 
but it does attempt to do some very basic things. It sets up a 
program to gather the data, which we desperately need--we have 
so little real data that it's an embarrassment that we don't 
know more about the issue, that we don't have better data on 
this issue--and Allen Beck is here from the Bureau of Justice 
Statistics, who I think is probably one of the best in the 
business. I'm sure his people, with support from Congress, can 
find out and get us much more information than we currently 
have.
    The other program would provide technical assistance and a 
clearinghouse to help resolve some of these issues, and then 
there's a program that the Attorney General would have which 
would enable him to make grants up to a million dollars to 
States and localities who are trying to grapple with the 
problem.
    So there is an honest effort to put some resources in this 
program to draw attention to it, to establish standards over a 
period of 2 years, and then I think recognizing that we have a 
long ways to go, Mr. Chairman.
    I think what we've also said is that it's not that 
complicated. It's true that we have to work out some issues 
around formula grants; it's true we have to work out some 
issues around compliance. But basically, what the act is 
requiring is really relatively simple, and as a former 
corrections administrator in several States, and in local 
governments, as well as in the juvenile system, I would not 
find it impossible to carry this out, even with existing budget 
constraints within which we all operate today. I mean, there's 
always been a budget crisis as long as I've been in 
corrections, Mr. Chairman. It didn't take this recession or 
this economic downturn that we're having to create an economic 
crisis in the correctional system.
    We're only asking that correctional administrators 
cooperate with the surveys and other efforts to measure 
accurately the prevalence of prison rape in our existing 
institutions, and be prepared to explain, in a public forum, if 
an institution or system is far above the established norm. 
It's an issue of accountability. What gets measured, Mr. 
Chairman, is what gets done.
    After years of hearings, discussion and debate, where all 
the fine people you see here today, and others, would have a 
chance to agree on a set of standards, and a set of standards 
that do not require substantial new State and local resources. 
And while we may debate the means of ensuring compliance, it is 
imperative that we, at a minimum, take these three steps.
    If the Congress decides to act, then all of you will have 
the satisfaction of knowing your actions have enabled all of us 
to taken a historical step forward. As Members of this 
Committee can readily see, the Prison Rape Reduction Act is 
comprehensive and designed to shed light on dark, violent 
places. However, even more importantly, it provides prison and 
jail staffs with ideas, resources and performance 
accountability, all urgently needed if we are to lower the 
level of violence that exists today.
    Passage of this legislation would be an historic step in 
establishing our commitment to real public safety. In this 
great country, we sentence people to prison as punishment and 
to protect our fellow citizens. We do not, and must no longer, 
sentence them to be raped, murdered or exposed to dangerous 
diseases. Those of us who have worked in our correctional 
institutions, Mr. Chairman and Members of this Committee, we 
applaud your efforts, your concern, and your humanity.
    Thank you.
    [The prepared statement of Mr. Hall follows:]

                  Prepared Statement of Frank A. Hall

    Mr. Chairman, Members of the Sub-committee on Crime, Terrorism and 
Homeland Security, it is an honor and a privilege to appear before you 
today. I am here to express my gratitude for your leadership in 
reducing violence in our correctional institutions and to express my 
support for the Prison Rape Reduction Act. I am also honored to be here 
with two of my colleagues, Reggie Wilkinson and Chuck Kehoe. I have 
known these two professionals for many years and they represent the 
best of the fine women and men working in our jails, prisons, and 
juvenile facilities throughout the country.
    I have worked in the correction profession for more than thirty-
five years in a broad range of positions. I have served as director, 
commissioner, or chief executive officer of the State corrections 
systems of Massachusetts, Maryland, and Oregon, the jail systems of 
Philadelphia and Santa Clara County, California and the New York 
juvenile justice system. To me, prison rape is much more than an 
academic issue. Prison rape impacts on human beings and on every jail, 
prison, and juvenile facility in America. It is an issue of violence 
and public health.
    At the end of this century, over two million persons were 
incarcerated in our Federal and State prisons and more than 630 
thousand were locked up in local jails. In 1999, there were more than 
ten million admissions to and discharges from these institutions. 
Although the research is limited-another part of the problem which 
would be remedied by the legislation- experts have conservatively 
estimated that at least 13 percent of inmates in the United States have 
been sexually assaulted while under our supervision. Many of these 
individuals have suffered repeated assaults. The total number inmates 
who have been sexually assaulted in the past twenty years could easily 
exceed one million.
    America's jails and prisons house more mentally ill individuals 
than all the Nation's psychiatric hospitals combined and experienced 
correctional professionals know that inmates with mental illness are at 
increased risk of sexual assault. Young first offenders are also 
vulnerable and those placed in adult rather than juvenile facilities 
are five times more likely to be assaulted.
    HIV and AIDS have become an increasingly major health problem in 
corrections. More than 25,000 inmates in Federal and State prisons are 
infected. In 2001, more than six percent of all deaths in these 
institutions were attributable to these life-threatening illnesses. 
Infection rates for other sexually transmitted diseases, tuberculosis, 
and hepatitis B and C are also far greater for prisoners than the 
American population as a whole. Prison rape is often a death sentence 
for the victim.
    Prison rape is nothing less than brutalizing violence and an act of 
rape or threat of rape in an institution increases the level of 
homicide and other violence against inmates and staff. Victims suffer 
severe physical and psychological effects that hinder their ability to 
re-integrate into the community and maintain stable employment after 
release. The result is higher recidivism, more homeless or at best 
individuals requiring some form of government assistance.
    Unfortunately, most prison and jail staff are not adequately 
trained or prepared to prevent, report, or treat inmate sexual 
assaults. As a result, prison rape often goes unreported and victims 
often receive inadequate treatment if they receive treatment at all.
    The Prison Rape Reduction Act is an historic bi-partisan effort to 
mobilize our efforts to combat a problem that, as we have seen, impacts 
far beyond the walls of the country's jails and prisons. The law would 
establish a zero tolerance of rape in United States prisons and would 
make its prevention a top priority. National standards for the 
detection, prevention, reduction, and punishment will be established. 
Long needed data on the incidence of prison rape will become available 
which will improve the management and administration of our 
correctional institutions. It will increase the accountability of 
prison officials who fail to detect, prevent, reduce, and punish rape 
and increase the visibility of officials who are innovative and 
effective. The proposed legislation is designed to help jurisdictions 
that seek to create a safer environment.
    The Prison Rape Reduction Act establishes three programs in the 
Department of Justice-the Statistics Program, the Prevention and 
Prosecution Program, and the Grant Program.
    The first of these, the Statistics Program, would conduct annual 
studies of a significant sample of Federal, State, and county jails and 
prisons on the in the incidence and prevalence of rape. The program 
would then conduct an annual review of the performance of these systems 
where the incidence of rape greatly exceeds the national average.
    The Prevention and Prosecution Program will serve as a 
clearinghouse for the provision of information and assistance to those 
authorities responsible for the prevention, investigation, and 
punishment of rape. This program would also provide training and 
assistance to Federal, State, and local prison officials.
    The third and last leg of this tripod would be the Grant Program, 
which authorizes the Attorney General to make annual grants (up to $40 
million each year) to State, and local programs that enhance the 
prevention and punishment of prison rape.
    In addition to the programs described above, the new legislation 
would establish a National Prison Rape Reduction Commission which would 
conduct comprehensive hearing and examine all penalogical, economic, 
physical, mental, medical and social issues related to prison rape in 
America. At the conclusion of its review the Commission will issue a 
comprehensive report on the subject, including a recommended set of 
national standards to reduce and eliminate prison rape.
    The standards will address practices for the investigation and 
elimination of prison rape including the training of correctional 
officers; sexually transmitted disease prevention; identifying, 
protecting, screening, isolating, and punishing vulnerable and 
potentially offending inmates; and other related issues. The Commission 
will be required to limit its proposals to those that do not impose 
substantial additional costs on States and local governments. The 
Commission's recommended national standards will be independently 
reviewed by the Attorney General who may modify them before publishing 
them for notice and comment under the Administrative Procedure Act.
    Once the standards become final, they will be immediately 
applicable to the Federal Bureau of Prisons. States then may adopt the 
standards by statute and those that do will receive increased funds for 
two years from certain Federal grant programs. States will continue to 
receive increased funds thereafter if they receive certification from 
an accreditation agency that they are in compliance with the standards.
    The Act further requires that all prison accreditation 
organizations to examine prison rape prevention practices as a critical 
component of their accreditation reviews including, when and where 
adopted, the national standards promulgated pursuant to the Act. 
Failure to do so would make such organization ineligible for the 
receipt of any Federal funds.
    The problem today, Mr. Chairman and Members of this Committee, is 
that our focus has been on building institutions not on what goes on 
inside. As administrators we are held accountable for the visible-
escapes and riots. These are the issues that result in blue ribbon 
commissions, legislative hearings, and the firing of wardens and 
commissioners and all too often line staff who shoulder the daily 
burden of keeping our facilities safe. The legislation before this 
committee requires a different level of accountability and it will 
change the reality for those living and working in the system. As the 
old adage states: ``What gets measured, get done.''
    Ladies and Gentlemen of this committee, we are not asking too much 
of my corrections colleagues, we are only asking them to take these 
three modest actions:

        <bullet>  Cooperate with the surveys and other efforts to 
        measure accurately the prevalence of prison rape in our 
        existing institutions.

        <bullet>  Be prepared to explain in a public forum if an 
        institution or system is far above the established norm.

        <bullet>  And after years of hearings, discussion, and debate, 
        agree to set of standards that do not require substantial new 
        State and local resources.

    While we may debate the means of ensuring compliance, it is 
imperative that we, at a minimum, take these three steps. If the 
Congress decides to act, then all of you will have the satisfaction of 
knowing your actions have enabled all of us to take an historical step 
forward.
    As members of this committee can readily see, the Prison Rape 
Reduction Act is comprehensive and designed to shed light on dark 
violent places. However, even more importantly it provides prison and 
jail staffs with ideas, resources, and performance accountability-all 
urgently needed if we to lower the level of violence that exists today. 
Passage of this legislation would be an historic step in establishing 
our commitment to real public safety. In this great county we sentence 
people to prison as punishment and to protect our fellow citizens. We 
do not and must no longer sentence them to be raped, murdered, or 
exposed to dangerous disease.
    Those of us who have worked in our correctional institutions 
applaud your concern and your humanity.
    Thank You.

    Mr. Coble. Thank you, Mr. Hall, and I thank the panelists. 
As I said, Mr. Scott and I are the only ones here and we'll 
have two rounds of questioning.
    Mr. Hall, I'm sure that probably one of the reasons why 
there is very limited statistics available is probably fear of 
retribution, I would suspect--Is that correct, that being one 
reason?
    Mr. Hall. I think that's one of the reasons, Mr. Chairman, 
yes. I think the other is that--and this almost goes--it is 
difficult to articulate, but I think there's been a reluctance 
on the part of all of us in the business to really talk about 
this issue and be frank about it.
    Mr. Coble. Yeah.
    Mr. Hall. I think that's part of the problem also.
    Mr. Coble. In your testimony you indicate that most prison 
and jail staff are inadequately trained or prepared to prevent, 
treat or report. What sort of training or preparation would you 
suggest?
    Mr. Hall. Mr. Chairman, I think you made a comment earlier 
about the Federal Bureau of Prisons. I think the Federal Bureau 
has provided a lot of leadership in this area. I think, if you 
look at the Federal regulations and policies, they very 
specifically deal with this issue. That is not true in many of 
the States; it's not true in some of the juvenile systems in 
this country; and it's certainly not true in many of the local 
jails.
    I think the training that would be provided under this is a 
relatively small grant, only five million dollars to the 
National Institute of Corrections. It could go a long way, 
since it's practically increasing the National Institute of 
Corrections' budget by 50 percent. So it could go a long ways 
to training staff, developing protocols--you have to have a 
protocol. In a corrections system, you have to have policy. But 
in training people in the policy, then giving them real tools 
to actually do the work that has to be done and the ability to 
investigate these things and protect the people that report. 
Because it's dangerous to report, Mr. Chairman, very dangerous. 
No one wants to report being raped if they're going to get 
killed within 24 hours after making the report.
    Mr. Coble. Miss Henke, your testimony indicates that there 
could be as many as 20 Federal formula grant programs at the 
Office of Justice Programs affected by the increases/reductions 
under this legislation.
    What criteria will be used to choose which programs are 
affected?
    Ms. Henke. Sir, the underlying legislation specifically 
says programs that are related to the failure to abate prison 
rape. That is the guidance that would be provided in the 
legislation.
    Specific criteria that would be used by the Attorney 
General to select the programs within OJP, others within the 
Department of Justice, or other programs throughout the 
Administration, is undetermined at this time.
    Mr. Coble. Mr. Kehoe, what are the benefits--Let me put a 
two part question to you.
    What are the benefits to a State or institution of 
accreditation, (a), and (b), why do some States or institutions 
choose not to be accredited?
    Mr. Kehoe. Mr. Chairman, the benefits of accreditation are 
that it provides a State and a facility a program with an 
outside independent assessment of that facility's strengths and 
weaknesses. It also helps to measure their compliance with 
attainable goals, and it implements in the implementation 
requirement for state-of-the-art policies to be achieved 
through the accreditation process.
    In some cases, it has actually aided in the defense in 
lawsuits. Federal courts have sometimes lifted their 
involvement with States because States have come into 
compliance with standards and accreditation. It also raises 
staff morale and professionalism because of the standards that 
specifically address training and qualifications.
    I would say probably that the most important thing is that 
it helps you develop a road map for daily operations. That's 
the thing that we see most often, that you have a consistent 
way of managing these facilities from day to day.
    I would say probably that, more often than not, what causes 
States, I think you asked, not to become involved----
    Mr. Coble. Yes.
    Mr. Kehoe.--is probably a lack of understanding and 
knowledge, and certainly the cost factor for some States is, to 
some extent, a deterrent. They just simply don't know whether 
they have the money and the resources to do that. But I would 
say those would be the two major issues.
    Mr. Coble. I have a question for Mr. Wall, but I will wait 
until the second round. Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    I think what we have heard is general support for the 
legislation, if we can work out the details. So let me ask you 
all a couple of questions.
    Mr. Kehoe, what portion of prisons today are, in fact, 
accredited?
    Mr. Kehoe. About 10 percent of the adult corrections in the 
country are--actually, it's more than that. In the U.S., about 
30 percent of adult prisons and jails are accredited, and about 
10 percent of the juvenile programs are accredited. There's 
about 1,600 facilities in numbers.
    Mr. Scott. Both you and Mr. Wall have suggested that we 
make sure that we contact those who do the accreditation. Does 
anybody else, other than ACA, do accreditations?
    Mr. Kehoe. Yes. The National Commission on Correctional 
Health Care does accreditation specific to health care, but 
doesn't go into the operations and beyond the health care.
    Mr. Scott. So if we wanted to contact a group that did 
accreditations, it would be ACA?
    Mr. Kehoe. Yes.
    Mr. Scott. I don't remember which one it was, but somebody 
mentioned the composition of the panel. Other than corrections 
officials, who else ought to be on the panel?
    Mr. Kehoe. Certainly I would think, Mr. Scott, people with 
law enforcement background, who have some experience in 
investigative skills, who have experience in dealing with 
sexual assaults in a free society would also bring a lot of 
strength to that composition as well.
    Mr. Scott. Does somebody else want to respond to either of 
those questions?
    Mr. Hall. Mr. Scott, I would also urge that, if such a 
panel be appointed, that it also include some folks that 
represent the people that have come through the system. You 
know, we haven't heard from those folks today. But those 
stories are compelling. I know these people personally, many of 
them, and they're absolutely true. We have to have people on a 
panel like that who represent some other points of view.
    I would like to think that those of us in corrections are 
smart and sensitive and thoughtful about these issues, but it's 
important to have other people there with us I think.
    Mr. Scott. You're talking about a broad cross-section. The 
problems we have with that is the way we have them appointed, 
three by this person, two by that person, one by this person, 
so that you don't get to appoint a group. You have to appoint 
one and that's it. Then you look and see what you've got. 
That's how we generally do it. We might have to tinker with 
that to make sure that, when all is said and done, we have a 
cross-section of the various disciplines.
    Mr. Wall?
    Mr. Wall. Yes, Representative Scott, if I may. There are 
really three components here, as I understand it. One is the 
BJS component, the second is this review panel to take the BJS 
statistics and help to present a profile of who the victims 
are, who the perpetrators are, and what the context is. The 
third is the commission that will promulgate standards for 
States to adhere to.
    I had suggested that, with regard to the first prong, the 
BJS study, that there be an advisory group that would be 
broadly representative, that would help with definitional 
questions and identifying the appropriate ways to gather 
information. That would absolutely include victims' advocates 
as well as former inmates, as well as corrections 
professionals, law enforcement personnel and prosecutors.
    Mr. Scott. You mentioned definitional questions. Several 
have indicated a question about the definition of rape, 
including whether or not staff-in-inmate rapes would be 
included.
    Are there places that have already dealt with that question 
that we could find a definition?
    Mr. Hall. Mr. Chairman, Mr. Scott, I would suggest, even if 
you look at the state of current law on sexual assaults, it 
pretty well covers it. When you're in a correctional facility, 
the mere threat of an assault in itself is a criminal act for 
all intents and purposes. When someone is threatened with rape 
or threatened with some sexual act, and if they don't cooperate 
they're going to be killed or maimed or whatever, I think the 
law pretty much covers most of these issues.
    Ms. Henke. Sir, just one more thing, if I may. Congress did 
provide $13 million to the Office of Justice Programs in the 
fiscal year 2003 appropriations bill for the Bureau of Justice 
Statistics and the National Institute of Justice. Both of these 
entities, working collaboratively, are prepared to empanel a 
group of experts, practitioners, researchers, et cetera, 
individuals from the field that can address these issues. So 
the Bureau of Justice Statistics and the National Institute of 
Justice can get a head start on identifying some of these 
issues.
    Mr. Wall. And, Representative Scott, with regard to the 
issue of staff on inmate sexual assault, that is a crime, a 
violation of the criminal code in 48 of the 50 States at the 
present time. Consent is not a defense in those instances. The 
mere fact of sexual misconduct between a staff member and an 
inmate is defined as a felony.
    Mr. Scott. Thank you.
    Mr. Coble. Thank you, Bobby.
    Mr. Wall, I don't think this has been touched on. We talk 
frequently and consistently about the lack of statistical data. 
How important, Mr. Wall, is it to reducing the incidence of 
sexual assault to obtain accurate statistics?
    Mr. Wall. I think that it is very important to obtain 
accurate statistics, and that's why, Chairman Coble, I have 
recommended that there be an advisory group put together to 
assist the Bureau of Justice Statistics in assembling that data 
and also that it draw on a variety of surveys.
    Let me give you an example of one of the challenges that 
can be presented here. It is conceivable that a State which has 
good supervision, close supervision by staff, and good 
reporting mechanisms, could show up as having a high incidence 
of sexual assault on inmates, because in my experience over the 
years, if inmates have reason to believe that they will be 
believed and protected, they will report misconduct, whether it 
be by staff or other inmates. If inmates do not think they will 
be believed or protected, they will remain silent. That's why 
the issue of collecting data and collecting accurate data is 
going to be a very important and challenging piece.
    Mr. Hall. Mr. Chairman, I certainly agree with what Mr. 
Wall has said. I think one of the reasons we've heard less 
about this issue over the years is because people have remained 
silent. I think many people who have been assaulted remain 
silent.
    I think the interest of Congress and the interest of the 
Federal Government in this problem I think will change that 
silence. I think it will have a very positive impact.
    Mr. Coble. I hope so.
    Miss Henke, pardon my raspy voice. I have already 
apologized to others. I know this sounds terrible.
    Miss Henke, are the standards that have been adopted by the 
ACA also the standards that are required by the Federal 
correctional facilities?
    Mr. Henke. Sir, to my knowledge, the Federal Bureau of 
Prisons has had their own standards in place since about 1997. 
However, the Bureau of Prisons also works to adopt the 
standards identified and used by the ACA.
    Mr. Coble. Thank you.
    Mr. Scott.
    Mr. Scott. Thank you.
    Mr. Wall, you indicated there may be some things we're 
overlooking. What were you referring to?
    Mr. Wall. My concern is this, Representative Scott, that 
there is another emerging crisis in the corrections field that 
has to do with the fact that our systems continue to grow but 
that we are facing nearly unprecedented fiscal constraints.
    In the late 1980's and 1990's, the philosophy really was to 
build more prisons and staff them up. We are now some 10-plus 
years, 10 to 15 years later from the beginning, from the onset 
of that philosophical approach, the coffers are exhausted, 
governors and legislators are not willing to spend additional 
capital monies, are not willing to continue to staff up and 
operate expensive correctional institutions, but our numbers 
have not abated. As a result, governors are forced to consider 
how to manage the population and whether the populations of 
correctional facilities can be allowed to continue to grow, 
notwithstanding the fiscal constraints. In virtually every 
jurisdiction, steps are underway and serious discussion is 
occurring about how to deal with that problem.
    My point would be that this is an occasion where the States 
really could benefit from targeted, technical assistance, so 
that we don't make those decisions unwisely and in 
contravention of the public safety. I would argue, as Mr. Hall 
has, that just as sexual assault in prisons can be looked at as 
a threat to public safety, through public health and through 
the consequences of people behaving on the street who have been 
abused that way, we also, of course, care deeply about the 
public safety associated with releasing inmates who might 
otherwise be incarcerated and want to be sure that those 
decisions are made soundly and wisely. We would appreciate the 
Federal Government's assistance in providing us with the means 
to do that.
    Mr. Scott. Thank you.
    Several questions have been raised about the funding 
formula. Does anyone have any concern, or are we confident that 
there is common ground that we can solve this? Let me ask that 
of Miss Henke.
    Ms. Henke. Sir, it is the Department of Justice's hope that 
yes, there is common ground. In discussions with individuals at 
the table, as well as other supporters of the legislation, it 
is the Department's hope that this issue can be addressed and 
that common ground exists for us to build from.
    Mr. Scott. Mr. Hall?
    Mr. Hall. Mr. Scott, all the members of the coalition that 
support this legislation left their agenda at the door and are 
focused on this issue and this issue alone. I am relatively 
certain, as long as there is some form of compliance in the 
legislation, that some formula and some understanding can be 
worked out.
    Mr. Scott. Mr. Wall and Mr. Kehoe, do you have any concern 
that we might not be able to find a common ground to get past 
the funding questions?
    Mr. Kehoe. Mr. Scott, I think we are in agreement with the 
Department of Justice on what has been said so far. People 
working collectively toward a unified cause, with a goal in 
mind, can achieve anything. I think we would be supportive of 
that.
    Our greatest concern is that we not end up in a situation 
where no good deed goes unpunished.
    Mr. Scott. Thank you.
    I guess a final question. A couple of people have used the 
phrase ``integrity'' in conjunction with the numbers that we 
get. What can we do to ensure--I think Mr. Wall kind of touched 
on this a little bit--that the numbers we get as a result of 
the surveys are accurate?
    Mr. Hall. Mr. Scott, I think that with Mr. Beck's 
involvement from the Bureau of Justice Statistics, the 
involvement of a lot of people that understand how to gather 
this data in a way that protects the people that give up the 
information, I'm convinced we can get the data. I mean, there 
are ways of doing these studies. I may be looking at people 
that have already been released, that are already off parole, 
that we have to look at some of those folks. But I think 
there's ways of gathering this data without compromising it, 
and I'm convinced that can be done. I think people are smart 
enough to figure that one out.
    Mr. Scott. Thank you.
    Miss Henke?
    Ms. Henke. Sir, if I may, once again under the $13 million 
that was provided in the BJS appropriations bill, the Bureau of 
Justice Statistics is prepared--we have worked over the past 
month, maybe 2 months, to develop a proposal that we have 
discussed with many individuals. What the Bureau of Justice 
Statistics is going to do is they're going to pilot something 
they call the Audio Computer Assisted Self-Interviewing 
technique--it's called the Audio CASI, is what we call it--to 
improve the reliability of numbers.
    One of the things the expert statisticians at the Bureau of 
Justice Statistics have said is currently there are pretty much 
two ways to gather the numbers: you provide a survey and let 
them fill it out whenever they fill it out, and turn it in 
whenever they turn it in; or there is a personal interview.
    Personal interviews often sometimes subdues what an 
individual will discuss. By using this audio computer system, 
one, it's a more controlled environment, and two, it is not a 
person that you're sitting there talking with. So the Bureau of 
Justice Statistics, at OJP, is going to be moving forward on 
that technique to pilot it relatively quickly.
    Mr. Hall. Mr. Scott, one other comment.
    I think, quite frankly, based on the studies that have been 
done, and the information that we currently have, it is still 
my opinion that we have underestimated the full extent of the 
problem.
    Mr. Coble. The gentleman's time has expired.
    Does the gentlelady from Texas have questions?
    Ms. Jackson Lee. Yes.
    Mr. Coble. The gentlelady is recognized for 5 minutes.
    Ms. Jackson Lee. Mr. Chairman, I ask unanimous consent to 
submit my opening statement into the record.
    Mr. Coble. Without objection.
    [The prepared statement of Ms. Jackson Lee follows:]

       Prepared Statement of the Honorable Sheila Jackson Lee, a 
           Representative in Congress From the State of Texas

    I would like to thank Chairman Coble and Ranking Member Scott for 
convening this very important hearing today to hear testimony and 
discuss H.R. 1707, the ``Prison Rape Reduction Act of 2003.''
    This important bill will help to bring an end to the deplorable 
rapes, molestations, and sexual assaults that occur in our prisons.
    The negative impacts of prison rapes go beyond the physical trauma 
of the attack itself. The victims suffer psychological trauma, 
emotional scarring, shame, the stigma of being victimized, and the 
destruction of their dignity.
    H.R. 1707 is a moderate bill that seeks to address the scourge of 
prison rapes. The bill does not infringe on state and local governments 
role in administering their correctional institutions. Likewise the 
bill does not impose mandates on correctional facilities without 
providing funding.
    A critically important element of the bill is empowering the 
Department of Justice to conduct extensive research so that we can have 
a better understanding of the scope and character of the prison rape 
problem. The DOJ's research will also enable us to educate and train 
correctional facility officers to prevent prison rapes, to investigate 
and punish those responsible for the attacks, and to establish a 
funding system does not conflict with state funding initiatives.
    By eliminating or significantly reducing prison rapes we will also 
benefit the general public. The psychological trauma of a prison rape 
has the potential to turn a person who was a non-violent offender when 
first incarcerated, into a violent offender when the person is 
released. Prison rape also increases the probability that prisoner 
rehabilitation efforts will be ineffective. Eliminating prison rapes 
will also reduce the incidence of infectious diseases like HIV/AIDS and 
hepatitis.
    As the Chair of the Children's Caucus, I am particularly troubled 
by the impact that prison rapes have on minors who have been 
incarcerated. Imprisoned youths are five times more likely to be raped 
or sexually abused than incarcerated adults. Furthermore, the 
psychological trauma of a rape is far more serious to a child.
    We must do everything in our power to eliminate prison rapes. It is 
far too common for prison officials and members of the public to ignore 
the crimes that occur in our prisons, and the problems facing our 
prisoners. To neglect our prisoners is a violation of the Constitution. 
The Supreme Court ruled in Farmer v. Brennan, that deliberate, 
indifference to prison rape violates the 8th Amendment's cruel and 
unusual punishment provisions.
    Thank you Mr. Chairman and Mr. Ranking Member, and I look forward 
to hearing the testimony of our distinguished witnesses to learn about 
how to eliminate prison rapes.

    Ms. Jackson Lee. Let me applaud, first of all, the Chairman 
for holding this hearing, and applaud both the Ranking Member 
of this Subcommittee for his initiative in this legislation, 
along with Congressman Wolf.
    Just for the record--and I know that these numbers have 
already been stated, but I guess it provides a chilling effect 
of this hearing to indicate that about two million inmates in 
the United States today--approximately two-thirds in Federal 
and State prisons and one-third in local jails--that of these 
two million inmates, it is conservatively estimated that one in 
ten has been raped, over or more than 200,000 inmates, and as I 
was listening to the testimony, there may be even more.
    According to a 1996 study, 22 percent of prisoners in 
Nebraska have been either pressured or forced to engage in 
sexual activity against their will while incarcerated, and a 
2001 report by the Human Rights Watch documented shockingly 
high rates of sexual abuse in U.S. prisons.
    The interesting thing, of course, is that, because of the 
age of majority, we have youngsters as young as 17 in adult 
prisons who may be victimized in this category. I am told by my 
interaction, my sad interaction with victims of sexual abuse, 
that it is a tragically life-changing experience.
    Then I would finally note that by increasing the 
transmission of HIV/AIDS and other sexually-transmitted 
diseases, tuberculosis and hepatitis B and C, all of which 
exist at a very high rate within U.S. prisons and jails, prison 
rape has serious health consequences. So I know that all of you 
are facing a very high and critical question and this 
legislation is very important.
    I would like to ask Miss Henke, right at this very moment, 
even without this legislation, knowing that this crisis or very 
severe problem exists, what are the Federal prisons doing, the 
Federal Bureau of Prisons doing, right as we speak to address 
this issue?
    Ms. Henke. Congresswoman, I can tell you a little bit about 
what they're doing, because I'm with the Office of Justice 
Programs and not with the Bureau of Prisons. But what I can 
tell you, as the Chairman stated early on, is that it has been 
noted that the Federal system has been working on this issue. 
The Bureau of Prisons has had policy in place since 1997, to my 
knowledge.
    In addition to that, they work to adopt the same standards 
that ACA adopts for State and local prisons. So yes, the 
Federal system has had a policy and practice in place since at 
least 1997.
    Ms. Jackson Lee. Mr. Kehoe--and she is not with the Federal 
Bureau of Prisons, and I'm going to find out later why they're 
not present. But in any event, Mr. Kehoe, can you assess 
whether there's been any work that has been legitimate and 
substantial on this question, beyond obviously the movement of 
this legislation, which I think will be of great help, but what 
has been done and what has been noted about this crisis so that 
something could be done, even in the interim of passing this 
legislation?
    Mr. Kehoe. Let me ask a question. Are you specifically 
speaking to the Bureau or globally, corrections-wise?
    Ms. Jackson Lee. Why don't you speak both specifically and 
generally. If you have more information generally, I'll accept 
that.
    Mr. Kehoe. Okay. I don't have specific information about 
the Bureau, other than to say that 95 percent of the Bureau's 
programs are involved in our accreditation process. To that 
extent, there are standards that address issues of assault.
    Most recently, in January of this year, the ACA standards 
committee passed four standards that specifically address the 
issue of sexual assault in institutions. They begin with the 
classification and intake process, to identify those 
perpetrators who may be the aggressor, and those who may be 
victims of possible sexual assault.
    The second issue addresses the need for prompt 
investigation when a threat or an assault actually happens, and 
the culmination of that investigation.
    The third and fourth standards really deal with the profile 
of an aggressive perpetrator, a sexually aggressive offender in 
prison, streamlining that person into the right program so that 
they get the appropriate level of custody as well as treatment.
    The last standard deals with those that might be considered 
potential victims in institutions, identifying them and 
properly--having standards that properly classify them so 
they're not put in harm's way.
    Ms. Jackson Lee. So you have been using standards to assess 
whether or not there have been any fix in the particular 
institutions that you've been dealing with, standards, 
reporting, et cetera?
    Mr. Kehoe. The standards that we have addressed 
specifically to sexual assault were just passed this past 
January, so there really hasn't been a period of time yet to 
collect any meaningful data of that.
    Mr. Hall. Representative Lee, could I make one comment on 
that?
    Ms. Jackson Lee. Yes.
    Mr. Hall. The accreditation process that was instituted by 
the American Correctional Association is a very positive 
process, and I think it's been of enormous help in corrections.
    But as I pointed out earlier, the problem is there is just 
so few institutions that are accredited. When you get into the 
issues of local jails as well as juvenile correctional 
facilities, then you have a major problem area.
    Unfortunately, as good as the process is, and even though 
these standards were adopted rather late in the process, the 
reality of it is most institutions don't go through an 
accreditation process. It's not like your school system or your 
colleges and universities. You can run your prison without 
accreditation. It's not like where if you have a college that 
doesn't get accredited, they'll probably end up closing their 
doors. That is certainly not true in this business.
    Ms. Jackson Lee. Mr. Chairman, is there a second round?
    Mr. Coble. No, just this.
    Ms. Jackson Lee. May I have an additional minute?
    Mr. Coble. One additional minute.
    Ms. Jackson Lee. I appreciate the response that you gave. I 
want to get the one representative State unfunded mandates, but 
I would like to know, one, what you're doing in your State, but 
more importantly, how this legislation will be helpful to you. 
I think I heard the funding issue, if you want to repeat that 
again, but how would it relate in terms of helping you be 
successful in the cure of this crisis and the very bad actions 
that are going on?
    Mr. Wall. Certainly, Representative Jackson Lee, there are 
a number of ways in which this legislation would be of use to 
jurisdictions that are seeking to prevent the incidence of 
sexual assault in prison, to deal with the aftermath, and to 
prosecute as a result.
    One is that the legislation includes a clearinghouse. As 
you know, corrections is, by and large, a State and local 
function, and that means we are sometimes in isolation from one 
another, a point I was making in regard to the issue of 
managing correctional populations, and there is a real benefit 
to having access to information about best practices that are 
occurring in other States. That's one way.
    Another way in which I would be helpful is that there are 
demonstration programs provided in the legislation, and at 
least in my experience over the years, when those succeed, they 
have a real effect on the profession and become the touchstone 
for changes in practice across the field. So that's still 
another way.
    Third--and I think this is very important--the fact is that 
I speak from my own 29 years in corrections, and I speak on 
behalf of all the directors of corrections. We do know that 
sexual assault occurs in our prisons; we abhor it. It is 
difficult for us to measure it, and we would appreciate some 
opportunity for the kind of analysis that this legislation 
affords, identifying the characteristics of likely 
perpetrators, of likely victims, and also the situations, 
context, locations in the institution, times of day, that these 
things take place, so that we have data and tools to use in 
attacking the problem.
    Ms. Jackson Lee. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Coble. Thanks you, Miss Jackson Lee.
    We thank the witnesses for your testimony. The Subcommittee 
very much appreciates your contribution.
    This concludes the legislative hearing on H.R. 1707. Do you 
have one more thing, Bobby?
    Mr. Scott. Mr. Chairman, I would like unanimous consent to 
enter into the record letters from the Prison Fellowship 
Ministry, signed by Charles Colson and Mark Early, and from the 
Justice Fellowship from a statement by Pat Nolan, President of 
Justice Fellowship.
    Mr. Coble. Without objection.
    [The material referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                    Prepared Statement of Pat Nolan
    ``The opposite of compassion is not hatred, it's indifference''. 
These words were written by a prisoner who was severely beaten after 
refusing demands for sex from another inmate.
    While often the subject of jokes on late-night TV, prison rape is 
no laughing matter. It has terrible consequences, not just for the 
inmates who are brutalized, but for our communities as well. The rate 
of HIV in prisons today is ten times higher than in the general 
population. Every rape in prison can turn a sentence for a non-violent 
crime into a death sentence.
    Prison rape leads to other types of death, also. Rodney Hulin set a 
dumpster on fire in his neighborhood. Despite being only sixteen years 
old, he was sentenced to eight years in an adult prison where he was 
repeatedly beaten and raped. Despite his pleas for help, no one in 
authority intervened to help him; he was told to fend for himself. 
Depressed and unwilling to face the remainder of his sentence at the 
mercy of sexual predators, Rodney committed suicide. Similar suicides 
have occurred in jails and prisons across the United States.
    Experts estimate that at least one in ten inmates is raped in 
prison. Because 95 percent of prisoners will eventually be released 
back into our communities, the horrors that occur inside prison have 
consequences for the rest of us, too.
    Some who suffer through brutal rapes become predators themselves, 
both in prison and after their release, subjecting other innocent 
victims to the same degradation that they experienced. Or they vent 
their rage in other acts of violence, often racially motivated. One 
example is the tragic story of James Byrd, the African-American who was 
picked up by three white supremacists, beaten, chained to the back of 
their pickup truck and dragged for three miles to his death. One of his 
assailants was John William King, a burglar who had recently been 
released after serving a three year sentence in one of Texas' toughest 
prisons.
    When John arrived at the prison, a group of white supremacists 
reportedly conspired with the guards to place John in the ``black'' 
section of the prison. At just 140 pounds, John was unable to defend 
himself against a group of African American prisoners who repeatedly 
gang-raped him. This was exactly what the white power gang wanted. 
Filled with hatred, John was easily recruited into their group for 
protection. Over the remainder of his sentence, they filled John's head 
full of hatred for blacks. When he was released, John King unleashed 
that pent-up hatred on James Byrd. The gang-rapes he endured in prison 
are no excuse for his murder of James Byrd, but they certainly help us 
understand what could lead him to hate so much.
    As troubling as the incidence of rape is, equally disturbing is the 
attitude of many government officials who are indifferent to it. When 
asked about prison rape, Massachusetts Department of Correction 
spokesman Anthony Carnevales said, ``Well, that's prison . . . I don't 
know what to tell you.'' In that offhand remark, he was expressing what 
many feel in their hearts but are loathe to admit--``they deserve it.''
    But they don't deserve it. Regardless of the crimes they have 
committed, no offender's sentence includes being raped while in the 
custody of government. By its very nature, imprisonment means a loss of 
control over the circumstances in which inmates live. They cannot 
choose their ``neighbors'' i.e. their cellmates, nor arm themselves, 
nor take other steps to protect themselves. Because the government has 
total control over where and how inmates live, it is their 
responsibility to make sure they aren't harmed while in custody.
    That is why Justice Fellowship strongly supports HR 1707, the 
Prison Rape Reduction Act, which would establish standards for 
investigating and eliminating rape, and hold the states accountable if 
they fail to do so.
    Winston Churchill said that the manner in which a society treats 
criminals ``is one of the most unfailing tests of the civilisation of 
any country.'' It is important that Congress deal with the scandal of 
prison rape, for in doing so, you will lead our nation in meeting 
Churchill's test of a civilized society.

    Mr. Coble. Without objection, I would like to introduce 
into the record as well correspondence from Mr. Glenn Goord, 
the Commissioner, Department of Correctional Services for New 
York, and the Department of Public Safety Corrections from 
Louisiana, Mr. Richard Stalder, as secretary.
    [The material referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Coble. This concludes the legislative hearing on H.R. 
1707, the ``Prison Rape Reduction Act of 2003.'' The record 
will remain open for 1 week.
    Thank you for your cooperation. The Subcommittee stands 
adjourned.
    [Whereupon, at 5:21 p.m., the Subcommittee adjourned.]


                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

               Prepared Statement of Michael J. Horowitz
    Chairman Coble, Congressman Scott and Members of the Subcommittee:

    I submit this statement in the hope that it will be of value to the 
Subcommittee in its consideration of H.R. 1707, the Wolf-Scott-
Sessions-Kennedy Prison Rape Reduction Act of 2003. Having been 
involved from the start with the extraordinary right-left, bipartisan 
coalition engaged in the effort to enact it, I hope that the following 
comments will shed light on the context and character of the effort and 
the bill.
    The first and most critical fact about the bill is its modest, 
moderate and federalism-friendly nature. The coalition supporting the 
bill, whose strong letter of support of April 18, 2003 is attached to 
this statement, has steadfastly resisted calls to deal with massive and 
epidemic prison rape through major federal spending initiatives, major 
federal spending mandates, significant amendments of existing laws or 
expansions of the right to bring lawsuits in the courts. The coalition 
is therefore pleased that H.R. 1707, which has the committed, indeed 
passionate support of such groups as the NAACP and Focus on the Family; 
La Raza and the Salvation Army; Prison Fellowship and Human Rights 
Watch; the Southern Baptist Convention and the Union of American Hebrew 
Congregations; the National Association of Evangelicals, the 
Presbyterian Church, U.S.A., the American Probation and Parole 
Association, Physicians for Human Rights, the Christian Coalition and 
Amnesty International, U.S.A. only calls for limited but strategic 
steps to be taken.
    Insofar as penal systems are concerned, H.R. 1707 only calls for 
three simple reform steps--all of them highly moderate in light of the 
fact that:

        <bullet>  Between 10 and 15% of the nation's two million 
        prisoners are now estimated to be victims of sexual assault 
        each year and, when victimized, to be repetitively assaulted--a 
        violent outcome that, by far, hits first-time offenders, 
        juveniles and the mentally handicapped hardest of all.

        <bullet>  Today's systematic indifference to prison rape not 
        only represents grievous and unacceptable penal and social 
        policy; Congressional action is further in order because the 
        Supreme Court's Farmer v. Brennan decision makes deliberate 
        indifference to prison rape a direct violation of the 8th 
        Amendment of the Constitution.

    The three actions called for by H.R. 1707 are these:

        <bullet>  Penal systems are called upon to cooperate with 
        annual Justice Department prison surveys of prison rape;

        <bullet>  Heads of prison systems whose incidence of prison 
        rape is found by the Justice surveys to exceed the national 
        norm by 30% or more are called upon to publicly explain and 
        defend their prison rape abatement policies; and

        <bullet>  Prison systems are called upon to comply with rape 
        abatement standards established after years of study by a 
        National Commission and by the Attorney General, and after full 
        notice and comment rulemaking--under circumstances where the 
        standards cannot impose significant spending mandates.

    H.R. 1707 seeks to enforce the three above reforms through limited 
adjustments in formula entitlements for federal grant programs whose 
purposes are most undermined by the failure to abate prison rape. I 
know that there has been discussion over this means of achieving 
compliance with H.R. 1707's three reforms, and believe that careful 
scrutiny of this approach will establish its moderate and non-intrusive 
character. Whatever one's views of H.R. 1707's grant formula adjustment 
approach, however, it is fair to say that the coalition's singular 
determination is that jurisdictions should not be free to ignore the 
three reforms, or be unaffected if they do so.
    Thus, the coalition's position may be summarized as follows:

        <bullet>  That meaningful mechanisms should be established to 
        ensure that prison systems can be surveyed to determine the 
        incidence of prison rape;

        <bullet>  That the heads of systems where the incidence of rape 
        significantly exceeds national norms should publicly defend 
        their rape abatement practices; and

        <bullet>  That prison systems should comply with carefully 
        established, no-spending-mandate rape abatement practices.

    As long as these three, limited objectives are achieved, Mr. 
Chairman, I believe that Congress will enact historic legislation that 
will be a credit to it, to our Constitution and to the decency of the 
American people.
             Letter from Harold W. Clarke, with attachments

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

         Letter from Cindy Struckman-Johnson, with attachments

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                      Letter from Joseph D. Lehman

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                   Letter from Reginald A. Wilkinson

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                       Letter from Alida V. Merlo

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                     Letter from Martin D. Schwartz

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                    Letter from Leanne Fiftal Alarid
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
